<html>
<title> - HURRICANE KATRINA: THE ROLE OF THE GOVERNORS IN MANAGING THE CATASTROPHE</title>
<body><pre>[Senate Hearing 109-804]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-804
 
     HURRICANE KATRINA: THE ROLE OF THE GOVERNORS IN MANAGING THE 
                              CATASTROPHE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                    U.S. GOVERNMENT PRINTING OFFICE
27-024                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                   Arthur W. Adelberg, Senior Counsel
                      John H. Cobb, Senior Counsel
                        James R. McKay, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
          Eric P. Andersen, Minority Professional Staff Member
           F. James McGee, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Akaka................................................    16
    Senator Warner...............................................    31

                               WITNESSES
                       Thursday, February 2, 2006

Hon. Haley Barbour, Governor, State of Mississippi...............     4
Hon. Kathleen Babineaux Blanco, Governor, State of Louisiana.....     6

                     Alphabetical List of Witnesses

Barbour, Hon. Haley:
    Testimony....................................................     4
    Prepared statement...........................................    41
Blanco, Hon. Kathleen Babineaux:
    Testimony....................................................     6
    Prepared statement...........................................    52

                                APPENDIX

Affidavit of Col. (Ret.) Perry Jeff Smith........................    56
Committee Exhibit 1 and State Exhibit 1..........................    72
Committee Exhibit 2..............................................    76
State Exhibit 2..................................................    79
State Exhibit 3..................................................    80
Committee Exhibit 13 and State Exhibit 4.........................    82
State Exhibit 5..................................................    83
State Exhibit 6..................................................    84
Committee Exhibit 3..............................................    93
Committee Exhibit 5..............................................   132
Committee Exhibit 29.............................................   136


                   HURRICANE KATRINA: THE ROLE OF THE
                 GOVERNORS IN MANAGING THE CATASTROPHE

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, the Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Warner, Lieberman, and Akaka.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. In the partnership among State, local, and 
Federal Governments that forms the backbone of the American 
system of disaster preparation and response, our Nation's 
governors play the central role. They are the essential bridge 
between local knowledge, and needs, Federal expertise and 
resources. They are the chief executive officers of their 
States and the commanders-in-chief of their National Guard 
forces.
    They are the indispensable decisionmakers in times of 
crisis. They decide when to ask for a presidential declaration 
of disaster, when to declare a state of emergency, whether to 
call up the Guard, under what circumstances to stand up their 
emergency operations centers and ask their sister States for 
help, when to trigger an evacuation order, how much emergency 
financial obligation to incur, how best to put the State's own 
resources to work, and how and what to communicate to a 
population suddenly thrust into misery, uncertainty, and fear.
    The governor's influence cannot be overestimated in times 
of catastrophe. By word and deed, by where the governor spends 
time, by the priorities the governor sets, by the issues and 
problems the governor becomes personally involved in, the whole 
tone and tempo of the response to a disaster are established. 
And the ultimate results, the successes and failures, to a very 
large degree, measure the governor.
    Today's hearing will examine in depth the challenges faced 
by two governors in overcoming the awful consequences of 
Hurricane Katrina. Their experience and insight will help this 
Committee as we seek to understand what worked and what failed 
across all levels of government so that we can prepare more 
effectively for disasters yet to come.
    I am pleased this morning to welcome Governor Kathleen 
Blanco of Louisiana and Governor Haley Barbour of Mississippi 
to this Committee. In this, our 15th hearing as part of our in-
depth investigation of Hurricane Katrina, we will explore 
further the issues that have surfaced in earlier testimony 
about the responsibilities of these States' chief executives 
both before and after the hurricane hit.
    How did they carry out the critical function of assigning 
responsibility for the emergency support functions under the 
National Response Plan and seeing to it that those duties were 
actually carried out? As an example of that, earlier testimony 
before the Committee revealed that the responsible cabinet 
officer in Louisiana completely abdicated his responsibility to 
plan for the evacuation of the elderly, the sick, and the poor 
who lacked their own means of transportation.
    How do the governors see their fundamental role of 
maintaining law and order and security of their citizens in 
cases where local law enforcement crumbles under the weight of 
its own deficiencies in planning and communications, as well as 
the severity of the conditions?
    How did the governors act to resolve disputes, conflicts, 
and jurisdictional rivalries among local, State, and Federal 
agencies that each wanted to do it their own way? How 
successful were they in expediting government resources to 
providers of critical services, even if they were in the 
private sector, such as hospitals and nursing homes?
    And then there is the uniquely American issue that must be 
addressed by the governors--resolving State and Federal 
differences regarding the status and use of National Guard and 
active duty forces in a very serious crisis. Under what 
circumstances, if any, should the National Guard be 
federalized?
    What of the relationship between the States? The pre-storm 
evacuation by Gulf Coast residents with their own vehicles was 
relatively efficient, due in large part to the exemplary 
cooperation between the two governors here today. In addition, 
the assistance from other States through the Emergency 
Management Assistance Compacts was invaluable. How can such 
cooperation be enhanced and used to even greater effect in the 
future?
    Finally, how do the governors see their own role within 
their own States? Who has the authority to order mandatory 
evacuations, and how can such orders be enforced? How can the 
governors help to resolve the communication problems that 
hampered preparation and plagued response across all levels of 
government? What can they do to remedy the serious problems 
that Katrina exposed that are clearly matters of State 
jurisdiction, such as the lack of effective evacuation plans 
for some hospitals and nursing homes?
    Governors are chief executives and commanders-in-chief of 
the National Guard. But above all, they are public servants 
with enormous responsibilities. They are the leaders to which 
their States' residents look to in times of crisis.
    This hearing will help us better understand both their 
obligations and limitations so that the partnership among 
governments that forms the core of our national emergency 
response system will be stronger and more effective the next 
time disaster strikes.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman. As a 
matter of fact, I associate myself with just about everything 
you said. And I will make my opening remarks brief.
    I want to welcome Governor Blanco, Governor Barbour, and a 
special welcome to your wife, Ms. Marsha Barbour, who was kind 
enough to escort us when we were in Mississippi a few weeks 
ago. I suppose in full disclosure, Governor, I should repeat to 
you what I said to the first lady that day, which is that she 
was a much more intelligent, charming, and attractive woman 
than I thought you deserved as a spouse. [Laughter.]
    Governor Barbour. As usual, we agree, Senator.
    Senator Lieberman. And I am sure the same would be said of 
me and my wife and that relationship.
    I want to thank both Governor Blanco and Governor Barbour 
for the cooperation that they and their staffs have given us 
and our investigators and staff in our inquiry here. And I 
can't resist saying that I wish we had this same full level of 
cooperation from the White House, which we are working on, but 
we have not, in my opinion, yet received.
    This is your opportunity, Governors, to tell us, to the 
best of your recollection, what happened, to answer some of the 
questions about the performance of State government, your State 
governments in this unprecedented natural disaster, and also to 
share with us your frank assessment of the performance of the 
Federal Government, particularly in the preparation for and 
response to Hurricane Katrina.
    What comes out of our hearings, and the story is well 
known, which is that not just was there, particularly in New 
Orleans, the long-time fear of the so-called ``big one,'' the 
big hurricane that would overrun the levees and flood the city, 
but that there were specific warnings along the way in the 
Hurricane Pam exercise, etc. And I think, as we look back, I 
presume that both of you would agree that no level of 
government did as much as it should have done to prepare for 
that eventuality.
    And so, this is an opportunity to share your reactions to 
all of that. This investigation is not about getting anybody. 
It is about getting to the truth of what happened so together 
we can work to make sure that we are much better prepared for 
the disasters that will inevitably come.
    I want to say, finally, briefly that, as you both know, we 
were there a short while ago, the second trip Senator Collins 
and I have taken there. And I think we were both stunned by the 
continuing devastation that exists, and not just to the 
property, which is extraordinary, and the dislocation of the 
people, but the threat that the storm continues to leave on the 
communities involved, large and small.
    And if I may say so, on the unique cultures that are parts 
of those communities that are a very important part of the 
fabric of American culture. The Chairman and I were not 
satisfied with what we heard that day of the Federal work on 
reconstruction, and we are going to take action soon to make 
some recommendations that we hope will improve it.
    But most of all, this morning, I thank you for being here, 
and I look forward to your testimony.
    Chairman Collins. Thank you, Senator Lieberman.
    I want to echo Senator Lieberman's thanks publicly to 
Marsha Barbour for being our escort when we were in Mississippi 
and you, Governor, for joining us in our tour of New Orleans.
    Like Senator Lieberman, I was absolutely stunned at the 
apparent lack of progress. When we think of the $85 billion 
that we have voted for to invest in the recovery and 
reconstruction of the region, it is very difficult to figure 
out where the money has gone. And we look forward to working 
closely with both of you to try to expedite the Federal 
assistance and to make it more effective.
    I am very pleased to welcome our distinguished panel today. 
Both Governor Haley Barbour and Governor Kathleen Blanco took 
office in January 2004. Because this is an ongoing 
investigation and we are swearing in all of the witnesses, I am 
going to ask you to stand so that I can administer the oath.
    Do you swear that the testimony you are about to give will 
be the truth, the whole truth, and nothing but the truth, so 
help you, God?
    Witnesses. I do.
    Chairman Collins. Thank you.
    We will begin with Governor Barbour. Thank you.

    TESTIMONY OF HON. HALEY BARBOUR,\1\ GOVERNOR, STATE OF 
                          MISSISSIPPI

    Governor Barbour. OK. I thought we were going to have 
ladies first. My fault.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Barbour appears in the 
appendix on page 41.
---------------------------------------------------------------------------
    Chairman Collins. That is southern. [Laughter.]
    Governor Barbour. Madam Chairman, I thought you were from 
Southern Maine.
    Madam Chairman, distinguished Ranking Member, thanks for 
the opportunity to join you today to discuss the worst natural 
disaster in our Nation's history, Hurricane Katrina. I have 
given you my written testimony. So I am not going to read it 
all because I look forward to the chance to answer the 
questions about the things that you are interested in.
    I will simply tell you, for us, this wasn't a calamity for 
the coast. We had hurricane-force winds 200 miles inland. We 
had a county 100 miles inland where there were 12 fatalities 
from the hurricane. You have seen the obliteration of the Gulf 
Coast, but there was tremendous damage in our State inland and 
a number of fatalities inland as well.
    In its wake, Katrina left tens of thousands of homes 
uninhabited, often obliterated; thousands of small businesses 
in shambles; schools, public buildings ruined, unusable; and 
highways, ports, railroads, water, sewer systems, all 
destroyed.
    You mentioned the EMAC system, the Emergency Management 
Assistance Compact. Our sister States were tremendous to us, 
starting with Florida whose elite search and rescue teams were 
on the ground in Mississippi the night of the storm. And we had 
600 Florida State law enforcement officers in Mississippi for 
more than 2 months.
    But it wasn't just Florida. North Carolina sent their Med-
One portable hospital, Georgia's investigators, and Ohio's 
search and rescue teams. We had 12,000 National Guard from 
units from more than 20 States, boots on the ground. Alabama 
sent two MP units while Mobile was still flooded.
    So, as Governor, I am terrifically grateful to all of the 
States. The generosity of the American people has just been 
unbelievable--Corporate America, philanthropists, everyday 
citizens.
    The President came to Mississippi about the second or third 
time, we went to a feeding station, where I bumped into a man 
who told me he was from Vermont and said that he and 16 other 
truck drivers had driven 17 tractor-trailer loads of food from 
Vermont to Mississippi. And I was marveling, thanking him, and 
he told me it was his third trip. The generosity and outpouring 
of the goodness of the American people has been spectacular.
    And I will tell you, I appreciate the efforts of the 
Federal Government. People complain about the failures, and 
there are plenty of problems. But let me tell you about some 
Federal efforts that didn't go wrong.
    The night Katrina struck, Coast Guard helicopter crews from 
Mobile conducted search and rescue missions on the Mississippi 
Gulf Coast. These fearless young men, who hung from helicopters 
on ropes--dangling through the air in the pitch-black darkness 
of the first night because there was no electricity--pulled 
people off of roofs and out of trees. And by the first Friday, 
these Coast Guard daredevils had lifted 1,700 Mississippians to 
safety by hoisting them up into helicopters.
    Later that week, the U.S. Department of Transportation 
began providing fuel for all our emergency responders and all 
our critical operations, which was essential to our recovery 
efforts.
    During the relief and recovery stage, the Federal 
Government has pumped resources in to help us. These efforts 
have been enormous, but those efforts have been far from 
perfect. From the outset, there were problems and shortages. 
Some were the inevitable result of our State's bearing the 
brunt of the largest and worst natural disaster in American 
history, which obliterated all systems. Electricity, water, 
sewer, roads, bridges, communications were all devastated. 
FEMA's logistical operations simply didn't provide what was 
needed.
    We found ourselves having to scramble, adjust, innovate, 
make do. Our efforts weren't perfect either, not by any means. 
But the spirit of our people pulled us through. Our people are 
strong, resilient, and self-reliant. They are not whiners. They 
are not into victimhood.
    From day one, they hitched up their britches and did what 
had to be done, helping themselves and helping their neighbors. 
Their spirit has been an inspiration to me, and it was and is 
the key to relief, recovery, rebuilding, and renewal.
    I am going to stop in a second. I do want to thank 
Congress. Just before Christmas, Congress passed a major 
Katrina supplemental disaster assistance package, totaling $29 
billion. Added to the assistance that will result from the 
Stafford Act, the Federal Government is providing and will 
provide some $25 billion to $27 billion of support for 
Mississippians and rebuilding our infrastructure. We are very 
grateful. And I pledge to you and to your constituents that we 
will be good stewards of the money that you are giving us.
    I especially want to thank Senator Thad Cochran, who led 
the passage of the package of supplemental appropriations, and 
Senator Trent Lott, who led the passage of the Gulf Opportunity 
Zone bill, and our entire congressional delegation.
    With that, Senator, I think what I will do is stop and let 
Governor Blanco make her remarks and then answer questions, as 
I would particularly like to speak to some of the questions 
that you raised, particularly about progress, debris removal, 
temporary housing. And so, I look forward to that.
    But if it suits the Committee, I would stop my formal 
statement at that point.
    Chairman Collins. Thank you. Governor Blanco.

TESTIMONY OF HON. KATHLEEN BABINEAUX BLANCO,\1\ GOVERNOR, STATE 
                          OF LOUISIANA

    Governor Blanco. Madam Chairman, Senator Lieberman, I want 
to tell you that it is a great honor to be here today. I deeply 
appreciate your bipartisan review and your efforts to identify 
the lessons learned from Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Blanco appears in the 
appendix on page 52.
---------------------------------------------------------------------------
    I take full responsibility for improving Louisiana's 
emergency response, just as Congress is responsible for 
improving the Federal response. We stand united in our 
determination to do better.
    I thank the American people for uplifting us with prayers 
and generosity. And I must thank the governors and officials 
from every State and territory for sending tens of thousands of 
National Guard troops and first responders. Men and women from 
across the country from every State stood shoulder to shoulder 
with Louisiana's first responders and the Coast Guard to save 
lives.
    I count Louisiana's neighbors among our blessings. Governor 
Barbour, thank you. Thank you so much for being a good neighbor 
and helping me when I called you. You helped me to move 1.3 
million people to safety before the storm. Many traveled 
through your State, and it was because of your willingness to 
enact a contraflow plan in your State, as well as the 
contraflow plan in our State, that actually worked.
    And thank you for extending welcome mats to so many of our 
displaced families. We have some of your families, too, 
ironically. But my heart goes out to your families. We know 
that our people lost everything. Our people experienced not 
just a Louisiana tragedy, not just a Mississippi tragedy, but 
an American tragedy of biblical proportions.
    In Louisiana, the catastrophic failure of our Federal levee 
system eclipsed Katrina, sending flood waters across New 
Orleans and the surrounding parishes. Still reeling from round 
one, Louisiana braced for round two. Rita leveled Southwest 
Louisiana the way Katrina leveled Mississippi.
    Katrina took 1,100 lives in Louisiana, and we mourn every 
one of them. Katrina and Rita wreaked a path of destruction 
through our State that displaced more than 780,000 people, 
ruined 217,000 homes, closed 18,000 businesses, and left 
240,000 people unemployed.
    All 64 parishes in our State were affected, and I hope you 
will join me in recognizing presidents and leaders of many of 
the hardest-hit parishes in Louisiana who are with us today. I 
would like to ask them to stand.
    Benny Rousselle, Plaquemines Parish president. Kevin Davis, 
St. Tammany Parish president. Toye Taylor, Washington Parish 
president. Junior Rodriguez, St. Bernard Parish president. I 
have Mayor Randy Roach of Lake Charles in Southwest Louisiana. 
Jefferson Council president John Young. Craig Taffaro, who is a 
councilman in St. Bernard. And Roland Dartez, who is director 
of the Police Jury Association.
    These are the people who are in the trenches today, helping 
us to rebuild Louisiana and working through recovery.
    [Applause.]
    Governor Blanco. Senators, most of you on this Committee 
toured, and certainly, Senator Collins and Senator Lieberman, 
we appreciate the fact that you toured our devastated areas. I 
believe you definitely understand the gravity of what has 
happened.
    We appreciate your call for additional Federal funding, and 
it has to be sustained. Help us as we ask the rest of Congress 
to understand. One way you can do that is by urging your 
colleagues to visit our State, please.
    In a hurricane region, we learn from every storm. Our 
evacuation for Hurricane Ivan that did not hit our State 
resembled Houston's gridlock during Hurricane Rita. So, at that 
point in time, I revised our plan. The phased evacuation used 
during Katrina used contraflow, using both sides of the 
interstate for outbound traffic.
    We efficiently moved 1.3 million people to safety within 36 
hours. In other words, we evacuated a population comparable to 
the entire State of Alaska or the entire State of Delaware or 
Hawaii, Rhode Island, or even Maine. In spite of successfully 
evacuating over 92 percent of the population, it is tragically 
clear that too many were left behind.
    Some people played hurricane roulette, remaining by choice, 
and had to be rescued. Others simply could not leave. We did 
the best we could under the circumstances, but we have to do 
better. We must do more to make sure that local governments 
succeed. When they succeed, we all succeed.
    Hurricane season begins again on June 1, and we are 
enacting lessons we learned. Here are some of the steps we are 
taking.
    We are rethinking our evacuation plans to account for the 
new reality of weakened levees and of people now living in 
trailers. We are requiring additional oversight of evacuation 
plans for nursing homes and hospitals. We are revamping primary 
and secondary emergency support functions under the State 
emergency operations plan. We are streamlining credentialing 
for out-of-state first responders, and the list goes on.
    We saw in Katrina what the Nation learned with the collapse 
of the communications systems after September 11. If you can't 
communicate, you can't coordinate. In Louisiana, we are working 
to acquire mobile command units and develop a state-wide 
interoperable solution that incorporates the entire emergency 
community. I ask Congress to design uniform interoperable 
standards with dedicated funding.
    Please reform the Stafford Act to account for catastrophic 
events and to allow the flexibility to adopt common-sense cost-
saving measures that meet our needs. For example, the Stafford 
Act forces FEMA to purchase costly temporary housing when the 
wiser investment just might be in some permanent housing.
    It is not uncommon to hear about evacuation planning, but 
it is unusual to hear about the inability to repopulate an area 
after an evacuation. This is the dilemma we currently face. For 
our people to return home, we must guarantee their security, 
their housing, their jobs, access to health care, a restored 
infrastructure, and improved schools. We are rebuilding an 
entire urban center from scratch.
    Today, I ask Washington to focus on security and housing. 
Our people deserve a stronger levee system, coupled with a 
long-term plan for hurricane protection and coastal 
restoration. Louisiana could finance its own long-term solution 
if Congress would simply give us what we believe is our fair 
share of oil and gas revenues from the outer continental shelf.
    We would not be here today if the levees had not failed. 
People could have walked or driven home from the Superdome if 
the levees had not failed. Our people entrusted their lives and 
properties to levees designed more than 40 years ago. It was 
like we expected a worn-out 1965 Chevy to pass 2006 safety and 
inspection standards. It is long past time to upgrade.
    We must replace false security with reliable 21st Century 
hurricane protection systems based on the most innovative, 
scientific, and technological advances. In the last special 
session of the legislature, I pushed creation of the Coastal 
Protection and Restoration Authority. The CPRA is charged with 
overseeing levee boards statewide and developing a master plan 
for coastal and flood protection.
    Next week, I am convening the legislature one more time to 
consolidate levee boards, to reorganize New Orleans government 
in order to eliminate waste and duplication, and to elevate the 
director of the Office of Emergency Preparedness to directly 
report to the Governor in order to improve internal 
communications.
    These new actions are only the latest in a series of tough 
post-hurricane reforms that Louisiana has enacted to help 
rebuild ourselves stronger and better than before. For the 
first time ever, our State has adopted a state-wide building 
code to better protect against future storms. Our new reality 
forced my decision to cut $650 million from our budget. We had 
a $1 billion shortfall.
    We are cracking down on corruption and have adopted new 
standards of accountability, mandating full disclosure of 
disaster-related contracts by public officials and/or their 
relatives.
    In order for our people to return home, we must address at 
the root many of the inequities that dominated New Orleans and 
the surrounding communities. Parents need to know that we are 
committed to building a brighter future for their children. 
This is why the State is taking over failing New Orleans 
schools and insisting on standards of excellence. We will 
preserve our unique culture, while building an improved future 
for all our citizens.
    Our people need housing. I want to thank you for the 
housing relief Congress so graciously sent us through the 
Community Development Block Grants. But I must tell you that 
this funding will only take us to the first junction along a 
road of urgent needs. Louisiana suffered more than 70 percent 
of the housing loss from Katrina and Rita. Fifty-four percent 
of the housing funding does not come close to an equitable 
solution.
    We do have a plan, a plan that will help homeowners whose 
homes were destroyed help clear their mortgages without losing 
their pre-storm equity through the Baker bill. Congressman 
Richard Baker is proposing a bill that would complete our 
package and make it work for Louisiana citizens.
    Last week, however, the White House attempted to kill this 
bill. Our delegation is urging Congress to consider our 
proposal favorably.
    An investment in the Gulf Coast region is a wise investment 
in the economy and the economic security of our country. Our 
port system is one of the Nation's largest epicenters of trade 
and commerce. We produce 25 percent of the domestic oil needs 
that drive our economy and are so important to the move toward 
energy independence. Our cultural contributions are studied and 
celebrated the world over.
    Congress has been generous, but we have a long road ahead 
of us. We are insisting on accountability and adopting bold 
reforms at the State level that I hope will echo through the 
halls of Congress. We are writing the book on lessons learned 
from this catastrophe.
    Please, be our lasting partner. That is what we need from 
you. Stand by us as we rebuild. Our people, hard-working and 
patriotic American citizens, deserve no less. Thank you.
    Chairman Collins. Thank you.
    Governor Barbour, the Committee has heard repeatedly from 
officials at all levels of government that Mississippi's 
biggest problem immediately following Katrina was a severe 
shortage of commodities like food, water, and ice.
    In fact, your director of the emergency management agency 
has estimated that during the first 9 days after Katrina hit, 
FEMA delivered only 10 to 15 percent of the food, water, and 
ice that was requested by your State. And that point was 
actually echoed by FEMA's own representative in Mississippi, 
who has since retired.
    I want to ask you what you believe was the major cause of 
that shortfall in commodities. I understand that whole systems 
were down and communications were bad. But did it reflect, in 
your judgment, fundamental failures in FEMA's logistics?
    Governor Barbour. I don't think you can come to any other 
conclusion. It is correct, I know at least through the first 
week, that we were getting about 10 to 15 percent of what we 
were supposed to have received.
    As I said earlier, we just took matters into our own hands. 
We scrambled and started making things work. And the other 
Federal agencies, I have to say, really helped us.
    On the fuel side, the Coast Guard gave us 2 days worth of 
fuel when we were about to run out. And then before that was 
all consumed, U.S. DOT came in and provided fuel for us for 
several weeks. All of our emergency operations, including 
generators at hospitals and at public jails, not just motor 
fuel for our police cars.
    But that is what we had to do because FEMA couldn't provide 
it. Ultimately, the U.S. military provided us 1.5 million MREs 
that I remember them flying in, in C-17s if I remember right, 
there at Gulfport/Biloxi and started unloading tens of 
thousands of cases of MREs.
    Again, I don't know whether to attribute that to FEMA being 
agile or the military just filling in for them. But for us, it 
was a godsend.
    But this is the nature of the beast. And that is why when 
you ask ``what is the role of the governor,'' somebody has got 
to be in charge. And there can't be but one person in charge, 
and the Federal Government can't be in charge in Mississippi. 
And they never were.
    And you mentioned Bill Carwile, who was the Federal 
coordinating officer. One of the good things about the unified 
command structure was he knew he reported to me because it is 
like it says in the Good Book, ``Man can't serve two masters.''
    And he and they tried hard, but their logistical system 
just couldn't provide it. So we made other arrangements in 
various and different ways, and this wasn't the only thing 
where we had to make other arrangements. And sometimes it was a 
Federal agency that came in to help us fill the gap. Sometimes 
it was the private sector. Sometimes people just figured out 
how to make do.
    Chairman Collins. Thank you.
    Governor Blanco, during the 15 hearings that we have held, 
we have heard a lot of very troubling testimony. And during 
this past week, in particular, we have heard testimony that is 
very troubling to me and that seems to contradict the statement 
that you made this morning in which you said ``we did the best 
we could.''
    And I want to give you an example of that. Your Secretary 
of Transportation, Secretary Bradberry, has conceded to the 
Committee in his testimony that his department did absolutely 
nothing prior to Katrina to meet its emergency support 
obligation to plan for the transportation needs of those 
hurricane victims who could not evacuate themselves, the so-
called special needs populations, nursing home residents, those 
who may have medical needs but are at home.
    His exact words I want to read to you. ``We have done 
nothing to fulfill this responsibility.'' How can you say this 
morning that ``we did the best we could'' when one of your 
cabinet members has testified that he did absolutely nothing to 
plan for the transportation needs of the most vulnerable people 
in your State?
    Governor Blanco. Senator Collins, I have a very honest 
cabinet secretary who explained to you, I believe, that plan 
was in transition. We certainly agree with you that the 
Department of Transportation should have planned for the 
evacuation of the most needy citizens. Let me say that will 
never happen again. We all have learned powerful lessons.
    But in the pre-evacuation stages, the parish presidents 
here would tell you that the first-line responsibility lies at 
the local level. They know what is going on. And as we walk 
through the process of evacuation, they express their needs up 
the chain. Just as we do with the Federal Government, they do 
at the local level.
    The nursing homes, in particular, all had evacuation plans 
that they were expected to follow. And if they didn't follow 
them, they were expected to ask for assistance, first, from 
their local governments and then to the State. And then if, 
indeed, that could not be handled, we would handle it just like 
we did in Hurricane Rita. We actually had military assets at 
our disposal for Hurricane Rita, and we pre-evacuated the 
nursing homes and the hospitals.
    This is a very delicate population, and it has to be 
handled carefully because, as all medical personnel will tell 
you, an evacuation under the best circumstances can cause a 
delicate population to cause us to lose lives in the evacuation 
process. We even, with having the most assets at our disposal, 
when we did Hurricane Rita, because everybody was in Louisiana 
at that time, we even found glitches in the system then.
    My own Lieutenant Governor, Mitch Landrieu, was paying a 
last-minute coordinating call to the Lake Charles area just 
before the hurricane struck and ended up staying overnight with 
them in order to expedite the evacuation. Some of the military 
assets and the FEMA assets were being redirected to Houston, 
when they had been ordered by our DOD commander, General 
Honore, to come to Lake Charles.
    So even under the best of circumstances, a lot of things 
get confused. We have learned, though, a lot of lessons, and we 
are demanding that the nursing homes submit their plans to the 
State for very close scrutiny and review, and we will make sure 
that they all get evacuated.
    Chairman Collins. Well, let us talk about the nursing 
homes. You made the point that lives could be lost during the 
evacuation process. And I certainly agree with you that it is 
difficult, and it requires planning to move frail patients. But 
in this case, what happened is the majority of nursing homes 
did not evacuate, and people died because of it.
    You talked about that the nursing homes have an obligation 
to come up with their own plans, and that is certainly true. 
But certainly, when pleas for help were coming in to your 
emergency operations center, they should have been responded 
to.
    The most troubling testimony that we have received in this 
past week was from Joseph Donchess, who is the executive 
director of the Louisiana Nursing Home Association. He 
testified that although he is a named participant to sit at the 
EOC in Baton Rouge and was there throughout Hurricane Katrina, 
that when he communicated, passed on the messages from nursing 
homes pleading for buses to help evacuate them, pleading for 
fuel to keep their generators going, he was told, in effect, 
that because he represented a private organization that he 
could not order or send out missions for help.
    As a result, the evacuation of nursing homes was much 
delayed. He told us of a specific case where the delay 
contributed to the deaths of six patients.
    Were you aware that requests were coming in from nursing 
homes--I know you were present at the EOC--and that they were 
not being given priority, as Mr. Donchess has testified?
    Governor Blanco. I know that Mr. Donchess was extremely 
agitated in the aftermath of the hurricane when I saw him and 
spoke to him in the EOC. At that point in time, evacuations 
were far more difficult, and nursing homes and hospitals were 
competing for the limited amount of assets available to us.
    I would not characterize it, as he has, that nursing homes 
did not have a priority. Indeed, there were tremendous cries 
for help from many sectors--hospitals that needed evacuation, 
nursing homes needed evacuation. I cannot say that it was a 
pretty sight.
    But I will tell you, Senator, you are absolutely right in 
your concerns, and we will do a better job coordinating. I 
would like to point something out, though. It does take some 
time to evacuate this delicate population. And on the day, on 
the Friday before the storm, if every State that was threatened 
by this hurricane began evacuations on the Friday before the 
storm, Florida's nursing homes and hospitals would have all 
been evacuated in the panhandle.
    Alabama's coastal nursing homes and hospitals would have 
all been evacuated. Mississippi's would have all been 
evacuated, and Louisiana's. And that means they would have all 
moved north, perhaps into other States, into other facilities, 
or into the northerly reaches of our respective States. This 
would call for an enormous amount of equipment to accomplish 
this.
    Chairman Collins. I have just got to say that I can 
certainly understand his being extremely agitated if he is 
getting reports in that the most vulnerable elderly, ill, 
infirm patients in nursing homes are dying and can't get 
evacuated. I would be agitated, too, if I was getting those 
reports.
    Governor Blanco. We also have investigations going on, and 
arrests have been made. There is a personal responsibility from 
the owners of nursing homes.
    And I do want to correct the record. I don't think that 
anyone stopped to ask about public or private facilities. 
Indeed, we had privately owned hospitals that were evacuated by 
whatever assets we could command. I would take issue with that 
particular characterization because, in the end, we evacuated 
60,000 people. We had limited assets with unlimited needs.
    Remember that we are going to do this better the next time, 
and I think Mr. Donchess is very willing to work with us now to 
make sure that each nursing home follows its evacuation plan 
early and properly as well.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thank you, Madam Chairman.
    Governor Blanco, I want to go back to Secretary Bradberry 
for a moment because I had two reactions to his testimony 
yesterday.
    The first was to be quite impressed and appreciative of the 
work that he did on behalf of your administration with people 
from New Orleans city government in the mass evacuation, which 
was really quite remarkable and obviously is a major reason, 
perhaps the most significant reason, why more people were not 
killed by Katrina, in addition to the heroic efforts by a lot 
of search and rescue people.
    And that is the people who pretty much could get out on 
their own. But to facilitate that was a very important and 
impressive exercise in governmental partnerships.
    But on this question of the responsibility that his 
department was given under the State emergency response plan, I 
must say that his answer that it was transitional didn't fly 
with me. And just to briefly say that, as I understood it, the 
State, under your leadership, did something very responsive and 
constructive, which was that you--and maybe in response to the 
Hurricane Pam exercise--also created a new State response plan 
in some sense mirrored after the Federal response plan.
    In that regard, you gave the State Transportation 
Department the specific responsibility to get ready for 
transportation facilities for those who could not get out on 
their own prior to a natural disaster.
    And what was really stunning to me, first, in the reading 
of the staff interview with Secretary Bradberry was that he 
essentially said he didn't think that was an appropriate--I am 
paraphrasing, but I think I am catching the essence of it. He 
didn't think that was an appropriate responsibility for the 
State Department of Transportation. So he just plain didn't do 
it. And the consequences of that were terrible.
    Incidentally, we had the man from the Federal Department of 
Transportation here yesterday, and they didn't get going until 
after the storm either in terms of the enormous transportation 
assets they could have brought.
    But I want to ask you, were you aware that Secretary 
Bradberry had made this personal judgment that he essentially 
was not going to carry forward his responsibility for pre-storm 
evacuation transportation?
    Governor Blanco. I was not aware. But then, again, let me 
say that we didn't have any specific requests in the pre-storm 
exercise. We had much need after the storm.
    Senator Lieberman. I am sorry, and excuse me. Do you mean 
that the city did not make a request for pre-storm 
transportation for evacuation?
    Governor Blanco. That is correct. The city did not.
    Senator Lieberman. Even though, am I right, the State 
Department of Transportation was given that responsibility 
under the State response plan?
    Governor Blanco. That is correct.
    Senator Lieberman. But for some reason, the city did not 
ask, and the State did not, on its own, initiate any action to 
do that.
    I want to go back. So I don't want to dwell too long on 
this. But you did not know that Secretary Bradberry had decided 
not to carry out that part of his responsibility?
    Governor Blanco. No, sir.
    Senator Lieberman. Just for future reference, was there 
anybody in your administration who had responsibility for 
essentially making sure that the various State officials who 
had been given individual responsibility were carrying it out 
in preparation for a disaster?
    Governor Blanco. Yes. The officer in charge of the 
Louisiana Office of Homeland Security and Emergency----
    Senator Lieberman. OK. And hopefully, going forward, that 
person under your direction will make sure that everybody in 
the State government is doing what they are supposed to be 
doing to get ready for a disaster.
    Governor, yesterday, the Comptroller General, David Walker, 
issued a preliminary report on the conduct of the Department of 
Homeland Security and FEMA in regard to Katrina, and it was 
quite critical. The press secretary at the Department of 
Homeland Security put out a statement in response, which was 
quite critical of the comptroller general's report.
    In it, there is this sentence, and we will want to ask 
Secretary Chertoff and Mr. Brown about this. But since you are 
here today, I want to ask you about it. This is, again, the 
response of DHS to the criticism yesterday.
    ``The preliminary report falsely implies inaction by DHS 
and FEMA before landfall. In fact, the clear record shows that 
State officials expressed satisfaction with the Federal 
Government's asset pre-positioning and other pre-hurricane 
assistance during a video conference the Sunday prior to 
landfall.''
    There is a transcript of that conference that we have 
pulled up, which is Exhibit 3 in the exhibit book.\1\ But I am 
going to quote from it. If you want to look at it later, you 
can. President Bush was on that video call on Sunday, August 
28. Other officials from around the country.
---------------------------------------------------------------------------
    \1\ Committee Exhibit 3 appears in the Appendix on page 93.
---------------------------------------------------------------------------
    The record shows that during the call, Colonel Jeff Smith, 
Deputy Director of Louisiana Office of Homeland Security and 
Emergency Preparedness, provides a briefing for all on the 
call. And at the end, Mike Brown, Director of FEMA, says, 
``Colonel''--and I presume this is the basis for the DHS 
response--``Colonel, do you have any unmet needs, anything that 
we are not getting that you need?''
    And Colonel Smith says, ``Mike, no.'' Then there is a word 
that is inaudible to the transcriber--``resources that are en 
route, and it looks like these resources that are en route are 
going to be a good first shot.''
    ``Naturally, once we get into this thing, neck deep here, 
unfortunately, or deeper, I am sure that things are going to 
come up that maybe some of even our best planners hadn't even 
thought about. So I think flexibility is going to be the key 
and just as quickly as we can cut through any potential red 
tape when these things do arise.''
    I want to ask you what your understanding of what Colonel 
Smith was saying there. Because, obviously, the DHS is saying 
and going to say that they have got the word that they felt 
that everything was fine as far as the Federal pre-positioning 
for the hurricane coming on.
    Governor Blanco. Senator Lieberman----
    Senator Lieberman. Excuse me a second. Am I right that you 
were not on the call?
    Governor Blanco. That is correct.
    Senator Lieberman. So what I am asking you to do is to 
really try to, as a chief executive, help us interpret what 
Colonel Smith was saying.
    Governor Blanco. I think what Colonel Smith would be 
referring to, and I was not on the call, was the fact that for 
what we might call a ``normal hurricane,'' and if the levees 
had not failed, we would have had what we call a ``normal 
hurricane.'' And that would have been a lot of wind damage, a 
lot of rain damage.
    Senator Lieberman. Right.
    Governor Blanco. I think that what FEMA seemed to be lining 
up and what they were lining up would have been considered 
adequate, and it would probably have worked fairly well for us.
    Senator Lieberman. Had there not been flooding?
    Governor Blanco. Had there not been the awesome flooding 
that we had to deal with.
    Senator Lieberman. Right.
    Governor Blanco. And so, I am sure that in the early 
stages, the best you can do is know what is being lined up and 
know that you can count on that coming in. As it turned out, 
the level of preparation at the Federal level was inadequate.
    The State was overwhelmed. The Federal resources were 
overwhelmed. The local resources were overwhelmed. We were all 
overwhelmed by the magnitude of the fury of the storm, which 
then destroyed the Federal levees and then inundated our entire 
region with waters that were very destructive. And in that 
case, it became inadequate.
    Senator Lieberman. So do you think there is basis for what 
I take it to be the DHS statement that Colonel Smith's words 
led them to believe that at that point, on Sunday afternoon, 
the State was satisfied with what FEMA had done?
    Governor Blanco. Well, I think if they tell you that they 
have got a multitude of resources lined up, I can tell you, not 
being on that conference, that was the way I felt from the 
personal interactions that I had with Mike Brown and other FEMA 
representatives.
    They were working hard, we thought, to pre-position a lot 
of various assets, and indeed, they did that. And in the end, 
it simply was not enough.
    Senator Lieberman. Even though, by testimony we have heard 
and the extraordinary narrative that you provided the 
Committee, that Dr. Mayfield of the National Hurricane Service 
spoke to you on Saturday night, apparently got so anxious about 
what his scientific ability told him was coming that he was 
calling anybody he could call.
    Did he call you, Governor Barbour?
    Governor Barbour. Yes, sir.
    Senator Lieberman. Right. To say, ``This is the big one. 
This is going to probably cause enormous flooding.''
    So, on Sunday, wasn't the State on notice--and the Federal 
Government, I gather--from Dr. Mayfield's warnings, on notice 
that flooding was probably going to occur?
    Governor Blanco. We expected flooding. We get flooding 
after every hurricane. It is the amount of flooding that became 
untenable. There are certain low-lying regions that flood every 
time. And that is why we had wildlife and fisheries boats pre-
positioned, some 400.
    But I do want to say that we had first responders from all 
over Louisiana rushing in to the scene immediately following, 
as soon as it became evident of the level of devastation. We 
had volunteers who drove in with their boats and began rescue 
missions late Monday afternoon.
    Rescues, when life is in danger, a rescue situation is 
never really pretty. It is filled with tension and danger.
    Senator Lieberman. My time is up. Thank you.
    Chairman Collins. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman.
    I am sorry I was detained and missed all of your testimony. 
Just to let you know, I was at the National Prayer Breakfast 
this morning and also had a hearing as ranking member on the 
Veterans Committee. So I thank you so much. But I have got to 
tell you the timing has been perfect.
    Thank you, Madam Chairman, Governor Blanco, and Governor 
Barbour. I would like to add my welcome to you, too.
    In October, I toured parts of the Gulf Coast with my 
colleagues on the Energy Committee, and I was deeply moved by 
the heroic and humanitarian actions taken by the people of the 
Gulf region. It was great to hear and see them.
    Throughout our investigation, I keep thinking about those 
Gulf Coast residents who couldn't take care of themselves, 
especially the sick and the elderly. Like most Americans, I was 
stunned by the news footage of those left behind in nursing 
homes and hospitals. We saw firsthand nurses and doctors moving 
stranded patients to higher ground and higher floors as the 
hospital flooded, knowing that their own families needed help, 
too.
    I know Senator Collins has questioned you extensively on 
this subject, but I would like to follow up with a few 
additional questions.
    I would like to follow up with you on an issue I raised 
earlier this week with Dr. Guidry, the medical director of the 
Louisiana Department of Health and Hospitals. As you know, 
Emergency Support Function, ESF-8, of the Louisiana emergency 
operations plan gives the Louisiana State University Health 
Sciences Center primary responsibility for providing and 
coordinating hospital care and shelter for nursing homes and 
home health patients with acute care requirements, as well as 
casualties of emergencies and disasters.
    However, our Committee interviews have revealed that health 
care officials, specifically those in the Department of Health 
and at LSU, knew that LSU did not have the capability to 
perform this emergency function when the plan was agreed upon.
    As Senator Collins mentioned, a representative from the 
Louisiana Nursing Home Association testified that LNHA was 
barred from submitting requests for assistance for stranded 
nursing home residents through the E-Team process at the State 
emergency operations center. It looks to me as though there was 
no one organization willing and able to take responsibility for 
the Louisiana nursing homes during Hurricane Katrina.
    My question to you is did you know that the emergency 
operations plan contained a health care section that was not 
operational when you approved it?
    Governor Blanco. Senator Akaka, there are many parts of the 
early emergency plans that are very difficult to achieve, and 
we understand that. I do want to--for your own information 
because I have responded to Senator Collins' inquiry, the 
nursing home question, I believe, came into play in the 
aftermath of the storm, when we had unlimited needs, but 
limited resources.
    The nursing homes were competing with the hospitals at that 
point in time for removal of the neediest patients, fragile 
patients. We understand that we need to pre-evacuate nursing 
homes and have the nursing home owners follow the plans that 
they submit to the local governments. And the State has already 
put processes in place now to assure ourselves that every 
nursing home owner is following a prescribed plan and is safely 
evacuating their nursing home patients before an event occurs 
and not to be found in these difficult situations when 
everybody is crying and clamoring for resources.
    And I respectfully disagree with Mr. Donchess's assertion 
that because it was private sector they didn't have standing. 
We were evacuating private sector hospitals at the same time 
that we were evacuating public hospitals. In fact, some of the 
private hospitals got pre-evacuated, got evacuated before the 
public hospital.
    Senator Akaka. What person or agency do you hold 
accountable for responding to nursing home needs in the event 
of a disaster?
    Governor Blanco. We will now have the Department of Health 
and Hospitals responsible for that, and that will be Secretary 
Fred Cerise.
    Senator Akaka. Thank you.
    Governor Barbour, your testimony raises concerns over the 
labor shortage in Mississippi that is hindering your State's 
reconstruction. I share your concern over labor issues. 
However, in order to attract workers, their rights must be 
protected.
    I understand that Latino and immigrant workers are playing 
a critical role in rebuilding Mississippi communities. Yet 
numerous reports indicate that they are being exploited by 
contractors. The Mississippi Immigrant Rights Alliance, one of 
the key organizations assisting foreign workers on the ground, 
has filed approximately 200 complaints of nonpayment with the 
U.S. Department of Labor. Complaints have also included 
injuries resulting from unsafe working conditions.
    What is being done to enhance enforcement of State labor 
laws and to penalize unscrupulous contractors who refuse to pay 
or refuse to protect their workers?
    Governor Barbour. Senator, as you noted, those complaints 
were filed with the U.S. Department of Labor. They haven't been 
filed with the State, to my knowledge.
    Now the attorney general is not my appointee. He is an 
independently elected government official like I am, and 
perhaps his office has received those complaints. He is the 
person who would receive complaints about consumer fraud or 
business practices, that sort of stuff. But perhaps this 
organization has chosen to file those exclusively with the U.S. 
Department of Labor, which would be, of course, up to them, not 
up to me.
    We have, as I noted in my testimony, a lot of nonlocal 
people who are there working. Some of them are Latinos, 
Hispanics. Others are from other parts of the United States. We 
have got plenty of work for them.
    They need to be treated just like anybody else, and that is 
the policy of our State. I think if the attorney general were 
here, he would tell you that is the policy of his office. And 
if those complaints were made to him, I am sure he would act on 
them.
    Senator Akaka. Governor Blanco, would you respond to that 
also?
    Governor Blanco. I am not aware of anything, any complaints 
filed, not to say that couldn't be going on in Louisiana as 
well, sir. Thank you.
    Senator Akaka. Thank you.
    Governor Barbour, for those of your residents who were 
self-employed before the hurricane and who have been unable to 
find work since then, the Federal Government now provides 
financial assistance to meet their needs through the disaster 
unemployment assistance.
    That program now provides about $90 a week in benefits. Do 
you think it is realistic to expect these displaced and 
unemployed residents of your State to support themselves and 
rebuild their lives on $90 a week?
    Governor Barbour. Senator, as you noted earlier, we have a 
labor shortage on the coast. Anybody who is earning $90 a week 
through disaster unemployment or any other kind of 
unemployment, it is because they choose to. Because there is 
plenty of work, and there are jobs that are going a'begging in 
my State, good-paying jobs. In fact, we see today restaurants 
that can't open their normal hours because they can't get 
enough labor.
    So anybody that is getting $90 a week of disaster 
unemployment assistance in Mississippi is doing it by choice.
    Senator Akaka. Thank you.
    According to the diary you submitted to the Committee, 
Governor Blanco, Exhibit 29,\1\ on Saturday evening, Mayor 
Nagin informed you over the phone that he intended to order a 
mandatory evacuation of New Orleans on Sunday morning. Given 
the fact that you knew it was important for as many people as 
possible to evacuate, did you encourage Mayor Nagin to issue 
the mandatory evacuation order that night in order to give the 
people of New Orleans extra time to evacuate?
---------------------------------------------------------------------------
    \1\ Committee Exhibit 29 appears in the Appendix on page 136.
---------------------------------------------------------------------------
    Governor Blanco. Senator, the mayor and the parish 
presidents, many of whom are present with us today, all worked 
with us, and all of us were asking our people to evacuate 
beginning Friday morning. We learned late Friday night that 
Louisiana would be affected by the storm.
    So first thing Saturday morning, we had a 7:30 a.m. 
conference on Saturday morning. We also had one at 5 p.m. on 
Friday night, the night before, but Louisiana was not 
definitively a target at that point in time. We had just moved 
into the cone of influence. But by Friday night, we knew the 
hurricane was coming.
    So we began immediately early Saturday morning, all of us, 
urging evacuation, getting people to not panic, but to plan 
their exit. We evacuated an urban center of 1.4 million people. 
Now that is bigger than many States that are present and 
represented on this panel. It had to be staged in order to work 
properly. The low-lying areas had the mandatory orders out on 
Saturday.
    In Hurricane Ivan, those low-lying areas have one road down 
and the same road out. They are peninsula-like regions. And 
people from the low-lying areas actually got trapped and could 
not get out because the urban center had clogged the arterials.
    We have very limited access. I-10 is the main arterial that 
goes from California to Florida. And I-10 east and west is 
basically the main highway that people would mostly take.
    So when that happened, we all got together and worked very 
closely, and all signed agreements on how to stage an 
evacuation plan. It went extremely well. As the lower lying 
areas ordered their mandatory evacuations first, we were also 
urging all people to evacuate.
    We weren't saying, ``Stop, New Orleans people, do not 
evacuate.'' We were saying, ``Get your evacuation plans going. 
Pack up. Prepare to be on your own for 3 days. Bring food. 
Bring chairs. Bring cots if you have it. Bring your pillows, 
your blankets. Bring toys for the kids. Pack like you are going 
on a camping trip.'' Those were the things that I said to the 
people on the media.
    But we began that process on Saturday morning and urged 
evacuation all through the day Saturday. These parish 
presidents were urging mandatory evacuation so that their 
people would not get trapped.
    On Saturday night, Max Mayfield called me. Now we had been 
in our evacuation process. We had called for contraflow at 4 
p.m. in the afternoon. I had called Governor Barbour on Friday 
night, per our plan, our coordinated plan, and asked him if he 
would also order contraflow in his State so that some of our 
people could exit from the east and go north. And he did.
    I let him know on Friday night that was our plan, and again 
on Saturday morning, I confirmed it with him. We had a terrific 
partnership. We are going to do the same thing with Texas. In 
Rita, Texans came into Southwest Louisiana, the very place that 
we needed to evacuate ourselves. And our highways, our 
interstate was totally gridlocked for many miles.
    So Governor Perry and I have conferred, and our people are 
now working on a sensible exit plan to respond to these huge 
numbers of people who live in Texas that may need to use 
Louisiana highways. We think it is appropriate. We just need it 
to be coordinated, and we could establish contraflow if we pre-
plan that.
    See, I had to tell the Louisiana people in Southwest to use 
the back roads as much as they could to be able to get through 
the gridlock on the interstate. But we got everybody out safely 
for Rita.
    We did many things similarly in Katrina. Our contraflow 
plan worked magnificently. I was up in the air checking it. I 
watched it at major intersections, when you are blocking 
traffic from entering the city, when you have all of your lanes 
going outbound, and that is basically what we were attempting, 
what we actually did.
    So the evacuation process was complex. In fact, Secretary 
Bradberry of the Department of Transportation was the person 
who masterminded this, along with Colonel Whitehorn of the 
Louisiana State Police. And as I said, this was a very 
deliberate and well-planned and agreed-upon effort. All of the 
parish leaders had to sign on and agree to have the courage to 
stay with their plan.
    Now when Max Mayfield called on Saturday night, I will tell 
you that the mayor was probably going to call mandatory 
evacuation on Sunday for New Orleans because that was in the 
plan. But Mayfield actually enhanced his sense of urgency.
    Mayfield called me first, and I said, ``Sir, there is a 
mayor you must speak to tonight.'' He said, ``I have been 
trying to reach him.'' I said, ``I have his number. Give me 
yours. I will find the mayor and connect you two.''
    So when the mayor got that information Saturday night, he 
immediately went to his television stations and urged the 
people even more. Now do you know that all through the night 
Saturday night, our interstates were flowing outbound, and we 
still had contraflow in place all through Saturday night until 
we were supposed to close it down on Sunday at 4 a.m.
    Now you can't keep these things up. You have cones in the 
highway. You have barricades that prevent incoming traffic. You 
have got to remove all of that before a hurricane because the 
wind will then take those, and those will be flying missiles, 
and that can be very dangerous.
    So Governor Barbour's people had to do the same thing in 
Mississippi for us all to be able to make this thing work. His 
people were also using that contraflow part of the interstate 
that our people were using, and I had to urge patience because 
people, in tense situations, they might drive recklessly. They 
might get injured.
    An automobile accident, I told them explicitly. ``Drive 
carefully. We don't want you to get killed in an automobile 
accident. The idea is to get you to safety.'' And that was 
essentially what went on.
    When the mayor did call for mandatory evacuation on Sunday, 
I had traveled into New Orleans and had two press conferences 
on Saturday, but I went back on Sunday morning for the 9 
o'clock announcement to back him up, to make sure that the 
citizens understood the seriousness and the severity of what we 
were dealing with.
    And Senator, there were news reports at that time saying 
that no governor had ever gone into the city during the course 
of a hurricane. And so, they understood the seriousness of it, 
and the media was urging their citizens as well to get out. 
They were supplementing our messages, and they were saying 
Governor Blanco is here 2 days in a row. We know this is a 
serious hurricane. We are urging all of you to get out. No 
governor has ever done that before.
    So our evacuation efforts were comprehensive. There are 
always people, though, who want to play hurricane roulette. It 
is nearly impossible to get 100 percent of the people out. Our 
people are jaded, to some extent, or feel very brave at other 
times. We had evacuated for Hurricane Ivan. It didn't come to 
Louisiana.
    We had a bluebird day, and everybody was frustrated up on 
the highways. The kids are screaming, and you just want to get 
home, and they had to turn around and come back. And they said, 
``We did that for nothing.'' And I was so worried that this 
time, they would take that same attitude because Huricane Ivan 
was just the year before.
    But, fortunately, most people did not. But some people 
believe that they can tough out a hurricane. We have got some 
pretty rough, tough citizens who feel like they can be 
challenged by anything, and they choose to stay.
    And indeed, they would have been right, but for the 
flooding. They could have toughed out the storm, the winds and 
the rain of the storm. They would have made it.
    Chairman Collins. The Senator's time has long expired.
    Governor Blanco. I apologize. I am sorry.
    Senator Akaka. I thank you very much, Governors, for your 
responses, and I thank you for the time, Madam Chairman.
    Chairman Collins. You are welcome, and we will do another 
round. So you will certainly get more opportunity.
    Governor Blanco, before we go on, I do want to clarify an 
issue involving Mr. Donchess's testimony because I think you 
are under a misimpression. He did not say that the issue was 
whether the nursing home or hospital was privately or publicly 
owned, as you have asserted twice this morning.
    Governor Blanco. Well, that was my understanding. I am 
sorry.
    Chairman Collins. Right. And that is why I want to correct 
it for the record and just for your personal information.
    His point is that although he was a designated participant 
at the EOC, because he was representing a private organization, 
not a governmental agency, his requests were not handled in the 
same way that they would have been if they had come from a 
governmental entity, despite the role that specified for his 
organization in the plan.
    So it had nothing at all to do with the ownership of 
nursing homes and hospitals, and I just wanted to clarify that.
    Governor Blanco. We will fully investigate that, Senator 
Collins. There is no excuse for that. I appreciate the 
clarification.
    Chairman Collins. Governor Barbour, obviously, the 
evacuation of nursing homes and hospitals and others with 
medical needs presents some real challenges. Can you tell us 
what the experience was in Mississippi? How did you go about 
dealing with your nursing homes and other vulnerable 
populations?
    Governor Barbour. Well, first of all, the health 
department, the Division of Medicaid, the Department of Mental 
Health all have a piece of the action here. When Hurricane Ivan 
came, Governor Blanco mentioned Ivan, and I identify with her 
talk about hurricane fatigue. With Ivan, everybody boarded up, 
evacuated, nothing happened. Then for us, Hurricane Dennis, 
everybody boarded up, evacuated, and nothing happened.
    And candidly, Friday and Saturday, we were very worried 
about people evacuating. Even though a mandatory evacuation had 
been called for in the flood zones on the coast, there was just 
a lot of hurricane fatigue.
    But we have a situation where we have got a couple of 
nursing homes that are very vulnerable, and we just make them 
evacuate. And candidly, that is risky. As Governor Blanco said, 
some of those frail elderly, moving them is physically 
dangerous for them. It is emotionally dangerous for them. But 
Miramar, which is one of those nursing homes, is a slab today. 
So it was obviously the right risk to take in the case of 
Katrina.
    Same thing with the hospitals. The health department works 
with the hospitals, and we see what the danger looks like. And 
we evacuate anybody that can be taken. We had a number of 
hospitals that were knocked out, flooded. Hancock County, 
particularly. But most of the damage was down low. As you know, 
they are pretty well built, but we got a 38-foot storm surge in 
Hancock County, and that flooded them out.
    But I remember, not this hurricane because it was so 
obviously going to be bad, but for Ivan, we had to make one of 
the nursing homes evacuate. And that is where Medicaid comes in 
because that is who pays them. And if they get sort of 
uncertain of whether they need to evacuate, I get the director 
of Medicaid to call them, and they get a better attitude.
    But I sympathize. This is a dangerous thing, and we only do 
it when we know or we just think there is a really big risk. 
And that is really all I can tell you about it.
    Chairman Collins. I have noticed that the Mississippi 
Emergency Management Agency recently hired a logistics expert. 
Does that reflect your assessment that you can't rely on FEMA 
to be there for logistics? Or does it indicate that you found a 
gap in your own preparedness, or is it both?
    Governor Barbour. Madam Chairman, I don't try to micro 
manage FEMA--MEMA. Sorry. Either one of them, for that matter. 
But I don't try to micro manage MEMA. We are staffing up a 
little bit there. We have a tremendous amount of paperwork now 
that is involved with getting the reimbursements and getting 
all of that done, seeing how much the State's share is.
    The other thing is we are preparing for the next hurricane 
season. We have 34,000 travel trailers sitting on the Gulf 
Coast.
    Chairman Collins. Very vulnerable.
    Governor Barbour. Yes, ma'am. And they are vulnerable in 
several ways. They are not only vulnerable, if houses were 
blown away for 10 blocks deep, as you have seen, think of what 
it will do to these travel trailers.
    The other way they are vulnerable is the fear that some 
people will put a trailer hitch on the back of the pickup truck 
and drive off with the travel trailer, which is now hooked up 
to sewer. Most of them are hooked up to electricity. A handful 
still are running gas and that sort of stuff. So that is 
dangerous.
    But part of his logistical issue that the head of MEMA 
faces now is how are we going to deal with the people on the 
coast who are in temporary housing, very vulnerable temporary 
housing? And that may be why, but I don't know his specific 
thinking.
    And as I say, I think of my job, I don't try to micro 
manage all the State departments and agencies. If they think 
they know what to do, I tell them to do it. If they don't, I 
tell them, well, come on, let us sit down and talk about it, 
and we will figure it out.
    But both of those two situations may figure into that. 
Preparing for the future and also making sure we are getting 
all our Federal reimbursement stuff right.
    Chairman Collins. Governor Blanco, yesterday Mayor Nagin 
expressed his frustration over what he described as ``an 
incredible dance between the Federal and State government over 
who would be in charge.'' He said that the failure to promptly 
resolve that issue impeded the response to Katrina.
    And he went on to describe a meeting that he attended with 
you and with the President in which the President presented you 
with two options. Either the Federal Government could have a 
unified command structure over both the active duty and 
National Guard troops, thus essentially federalizing the Guard, 
or you, as Governor, could retain your authority over the 
Guard, and the Federal commanders would simply coordinate their 
efforts with you.
    The mayor said to us that he pushed very hard. In fact, he 
described himself as ``I was a bit pushy. The meeting left me 
disappointed. No decisions were made.''
    He said he pushed for this fundamental issue to be rapidly 
resolved, but he told us that instead of a decision being made 
at this critical meeting, where all the participants were, that 
you instead asked for 24 hours to make a decision, thus 
delaying the resolution of what the mayor identified as a key 
impediment.
    It seems to me that the options were pretty clear, the two 
options. You had the mayor expressing his repeated concern that 
the failure to resolve the command structure one way or the 
other, and he made very clear that he didn't care which way the 
decision was made, was hurting the response efforts. Why didn't 
you just make a decision at that point?
    Governor Blanco. Senator Collins, the mayor was not in our 
meeting that I had with the President, per se. The discussion 
had nothing to do with the underlying assumptions that no 
decision was made. Indeed, I told the President that the proper 
way to do business would be for me, as Governor, to retain 
control of the National Guard and for him to simply send troops 
in.
    I was pushing for Federal DOD troops to come in. At that 
point in time, we had very few. We had General Honore, a 
magnificent general of the Army, there without a force. And I 
was asking for a force to come in. And I was very clear with 
the President that I, as Governor, needed to retain control of 
the National Guard. There was no question in my mind ever.
    The President was asking another question, and I said out 
of respect to him that I would give him 24-hour notice. It had 
nothing to do with my adamant decision to retain control of the 
National Guard.
    There is not a governor in this country, four territories, 
or the mayor of Washington, DC, who would give up control of 
the National Guard. You absolutely have to have the law 
enforcement capacity of the Guard in these circumstances.
    I have for many years, as a citizen of the State of 
Louisiana and as a public official for the various offices that 
I have held, worked with and coordinated and observed as a 
citizen the National Guard coming in as a support system for 
local law enforcement authority. They have the legal right and 
the proper training to do that.
    Indeed, many of the Guard members who work in security, per 
se, are members of the civilian law enforcement effort that 
exists in our State and in our Nation. So they know the 
protocols, the local protocols. They know how to fold in with 
local law enforcement very well.
    I will tell you that at that point in time, Mayor Nagin had 
not been in good communication with us. You know the 
communication system had fallen down. The National Guard on 
Friday--this conversation occurred on the Friday after the 
storm.
    We actually were in the process of evacuating the 
Superdome. We had begun that process on Thursday and had also 
begun the process of evacuating the Convention Center on 
Friday. And I knew from our logistics and because I was deeply 
involved in every decision on this triage mission that I 
inherited from above that we were nearly completely finished 
with the evacuation process.
    Now that was the trauma of the week, trying to get assets 
to move about 60,000 people, 70,000 people out of the Superdome 
and out of the Convention Center. And that was when I was 
pleading for additional assets and for additional help from the 
Federal Government and waiting, well, gathering our own school 
buses up and sending them in, beginning on Tuesday, picking 
people up off the highways that were exposed to the elements. I 
also knew that we were just very nearly finished with that 
evacuation mission.
    Now I had asked General Honore to be in charge of the 
evacuation when he came in on Wednesday, and he coordinated all 
of his activities with me. We were in constant communication. 
But General Honore did not have a force to use. So he had to 
use the National Guard.
    We had to do a very focused, coordinated effort, and the 
National Guard actually carried out the vast amount of the 
responsibilities. We did ask the small number of DOD forces 
there--and really, it was a handful initially and very few 
people after that--to do the actual coordination.
    Chairman Collins. Governor, I will come back to this issue, 
but my time is expired. So I am going to yield to Senator 
Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. I am actually 
going to pick up on that.
    Because this is an important question, not just to help us 
understand what happened in the case of Katrina, but because 
one of the questions we are considering is the role of the 
Department of Defense in responding to disasters here at home, 
whether they be natural or, God forbid, terrorist.
    Incidentally, you provided early in December, both to this 
Committee and the House investigating committee, I think it is 
a 33-page narrative on what you were involved in, which has 
been very helpful to us. And I will refer to this as I go 
through my questions.
    Let us go to Monday, August 29. Hurricane Katrina hits 
landfall. Am I correct at that point or even before, had you 
begun making requests--and here I am speaking particularly for 
military assistance--from both your own National Guard, other 
National Guards under the so-called EMAC program, and the 
Federal Government for active Army support?
    Just tell us a little bit about who you spoke to after 
landfall at each of those levels.
    Governor Blanco. Well, before landfall, the Louisiana 
National Guard was being activated. We had, out of a force of 
about 11,000, approximately 5,000 available to us. The rest of 
them were in Iraq or Afghanistan.
    Senator Lieberman. Right.
    Governor Blanco. So we immediately activated all 5,000.
    Senator Lieberman. I want to make that clear. Your 
intention was to activate every available National Guards 
person?
    Governor Blanco. Every available member of the Guard in 
Louisiana.
    Senator Lieberman. Right.
    Governor Blanco. General Landreneau, who is the Adjutant 
General----
    Senator Lieberman. Adjutant General, right.
    Governor Blanco [continuing]. Of the Louisiana Guard also 
began to make calls to some of our nearby States, and they had 
already begun, before landfall, to deploy force in some numbers 
into Louisiana.
    Senator Lieberman. Right.
    Governor Blanco. In the aftermath of the storm, General 
Landreneau and I worked very closely. We were trying to 
determine exactly what our needs would be, and he began 
immediately to call the adjutant generals of other States, and 
governors from many States across the country----
    Senator Lieberman. And how did they respond?
    Governor Blanco [continuing]. Were calling me and offering 
assistance, as well as I was calling others to ask for specific 
assistance.
    Senator Lieberman. By what time----
    Governor Blanco. I got it in every single case.
    Senator Lieberman. Good.
    Governor Blanco. They responded quickly and with force.
    Senator Lieberman. Let me try to focus on that a little 
bit. By what point did you have the 5,000 members of the 
Louisiana National Guard activated?
    Governor Blanco. I think that was probably by Monday----
    Senator Lieberman. Later in the day, after landfall, or 
during the day?
    Governor Blanco. Well, I would have to go back and actually 
look at the record. But I know that they were activated before 
and converging on the scene. They were stationed away from the 
destruction because you don't want too many of them to get 
caught.
    Senator Lieberman. Right.
    Governor Blanco. Now we had some also in the area. We had 
some embedded in the Superdome.
    Senator Lieberman. Right. So when did the National Guard 
start to arrive from other States?
    Governor Blanco. Oh, on Monday, and I think prior to the 
storm, probably on Sunday a few. But in large numbers, Tuesday, 
Wednesday, and Thursday.
    Senator Lieberman. So is it fair to say by----
    Governor Blanco. By Thursday, we had a significant number.
    Senator Lieberman. Can you take a guess at what it was?
    Governor Blanco. I know that we had probably more than 
2,000 because part of what I needed right then on Thursday was 
this effort to settle the issues of the lack of law enforcement 
in the city down.
    Senator Lieberman. Right.
    Governor Blanco. The media had certainly amplified the 
lawlessness going on.
    Senator Lieberman. Hold off on that a minute because I do 
want to come back to that. Let me now ask you at what point you 
began to specifically request what I would call ``regular 
Army'' involvement? I know you have said, correct me if I am 
wrong, that General Honore came onto the scene, and you met 
with him on Wednesday, I believe you said in your narrative. 
Does that sound right?
    Governor Blanco. Right.
    Senator Lieberman. But at that point, he had few or no 
active Army troops?
    Governor Blanco. Well, I had requested it when we had begun 
talking on Tuesday.
    Senator Lieberman. Who did you talk to?
    Governor Blanco. I called General Landreneau----
    Senator Lieberman. Right.
    Governor Blanco [continuing]. And asked him to go through 
the channels. I mean, he is military. DOD forces in Iraq and 
National Guard work side by side.
    Senator Lieberman. Right.
    Governor Blanco. So I asked him to see what he could do to 
bulk up and get DOD forces. He called General Honore. Now these 
two men have a great deal of respect for each other, and 
General Honore is from Louisiana.
    Senator Lieberman. I could tell that General Honore was 
from Louisiana when I heard him speak, yes. [Laughter.]
    Governor Blanco. You could tell. He has a wonderful 
Louisiana accent.
    Senator Lieberman. He does.
    Governor Blanco. Well, his son is in the Louisiana National 
Guard as well. So he called General Honore, who promptly showed 
up on Wednesday. Now I was under the impression that--also on 
Wednesday, I spoke to the President directly.
    Senator Lieberman. Right.
    Governor Blanco. And told him, I was trying to explain the 
magnitude of our situation. That was very different, as 
Governor Barbour has said, from his situation.
    Senator Lieberman. Yes. Right.
    Governor Blanco. We had water for a month, that we had to 
dry the place out. But nonetheless, I was excited when General 
Honore actually showed up on Wednesday. I thought we had gotten 
the response that I had requested.
    Senator Lieberman. Can I go back a ways? Did you ask the 
President that was in a phone call on Wednesday?
    Governor Blanco. It was in a phone call on Wednesday.
    Senator Lieberman. For specific additional regular Army?
    Governor Blanco. Military assistance.
    Senator Lieberman. Yes, and let me ask you this question. 
Were you looking for additional numbers? In other words, you 
had a growing number----
    Governor Blanco. Yes. Boots on the ground.
    Senator Lieberman [continuing]. Of National Guards people, 
or was it special capabilities that you thought the regular 
Army would have?
    Governor Blanco. Well, it was both. We needed troops. We 
needed people on the ground.
    Senator Lieberman. Right.
    Governor Blanco. There was a huge amount of work to be 
done. And indeed, when they did come in, beginning on Saturday, 
they worked for weeks. It was hard work, going house to house 
and trying to find any people left. But I asked in a phone call 
on Wednesday. And then later in the day Wednesday, I thought 
that my request had been honored and----
    Senator Lieberman. When General Honore showed up----
    Governor Blanco. On Wednesday.
    Senator Lieberman [continuing]. You assumed that was the 
response to your request to the President?
    Governor Blanco. I did. And I was very pleased and honored, 
and I thought that was pretty rapidly deployed.
    Senator Lieberman. Did General Honore then tell you that he 
was going to be bringing in regular Army troops?
    Governor Blanco. Well, he never actually committed to that 
because I think I have to assume that he couldn't make that 
call by himself. But he came, as he explained to me, in an 
advisory capacity. I then asked him to please take over the 
coordination of the evacuation process.
    Senator Lieberman. Right.
    Governor Blanco. And we worked very closely together. I 
mean, we were in constant communication. But as I said, the 
National Guard then had to actually do the evacuation. But they 
all worked together. It was very well done.
    Senator Lieberman. OK. Let me ask you a question. Now we 
are going to Thursday of that week, and I am basing this on 
your narrative. It happens to be page 12 of Exhibit 29.\1\ You 
met, you tell us, with General Blum, who is the head of the 
National Guard for the country, to discuss what was happening.
---------------------------------------------------------------------------
    \1\ Committee Exhibit 29 appears in the Appendix on page 136.
---------------------------------------------------------------------------
    And in that narrative--and you correct me if I am wrong--
you state that General Blum advised you that you, as Governor 
of the State, that your National Guard forces should not be 
federalized. Is that correct?
    Governor Blanco. That is correct.
    Senator Lieberman. What were the circumstances under which 
that came up? Were you worried that there would be a request to 
federalize the forces, or did General Blum initiate----
    Governor Blanco. This is what was going on. We understood 
the magnitude of our need. So General Landreneau at one point 
came to me, and he said, ``Governor,'' he said, ``I have been 
calling in to these States, but I need General Steve Blum to 
make a national call.'' Because I kept saying, ``How many 
troops do we have coming in now?'' And we were just looking at 
the whole picture.
    And then you must remember this was not just New Orleans. 
This was St. Tammany----
    Senator Lieberman. Sure. Right.
    Governor Blanco [continuing]. Washington Parish, St. 
Bernard, Plaquemines. There were many needs. Jefferson is a 
huge parish, huge geographic parish. And we needed people 
deployed in all of these regions, and a lot of people live in 
those areas.
    Senator Lieberman. Excuse me for interrupting, just because 
the time is going.
    Governor Blanco. I am sorry.
    Senator Lieberman. No, that is not your fault at all. I 
appreciate it.
    In the conversation with General Blum, were you concerned 
or was he concerned that there might be a request to federalize 
the troops? Or did he just say that as part of the normal 
operating procedure of the National Guard?
    Governor Blanco. No. I told him that I had asked the 
President for DOD forces.
    Senator Lieberman. Right.
    Governor Blanco. And then on Thursday, and I guess maybe 
before that, the word ``federalization'' had been floating 
around. And as I appreciated, I asked General Blum to explain 
what exactly that would mean.
    Senator Lieberman. Yes.
    Governor Blanco. And he said it would mean that the 
National Guard forces would become a part of DOD, and then we 
talked about the law enforcement capabilities that I needed. 
And in federalization, it changes, all of that changes. You 
lose the law enforcement capacity.
    Senator Lieberman. Correct. Because of posse comitatus, and 
all of that.
    Governor Blanco. So I asked him because, really, I didn't 
want to be negligent, and I said does it prevent DOD coming in 
with force, if we don't do this thing, this federalization 
move?
    Senator Lieberman. Yes, because----
    Governor Blanco. And he said absolutely not.
    Senator Lieberman. It doesn't prevent them?
    Governor Blanco. It does not prevent them.
    Senator Lieberman. OK. Let us go to Friday, the meeting 
that we have heard about, whether it was a dance or not I guess 
is up to the participants' vision of it. But the President was 
there. Mayor Nagin was there.
    Was it at that larger meeting or at what we have heard 
described as a separate meeting right afterward that you and 
the President had that the idea of federalizing the Louisiana 
National Guard was first raised?
    Governor Blanco. It was in our separate meeting.
    Senator Lieberman. Right. And who was there besides the 
President?
    Governor Blanco. Well, in our private meeting, I think it 
was just the President, myself, and I think his Deputy Chief of 
Staff, Joe Hagin.
    Senator Lieberman. Right. Was there an explanation given 
about why you were being asked to federalize the National Guard 
of Louisiana?
    Governor Blanco. The President was just asking me what my 
thoughts were on it. It was just really an honest discussion 
about the pros and the cons of coordinating, how would you best 
coordinate two forces. I would describe that as a very honest 
and open and direct conversation, and I shared with him mainly 
the things that I have told you.
    Senator Lieberman. So you tell me if I am drawing a wrong 
impression from what you just said. Though the question was 
being raised by the President, I take you to be saying you 
didn't feel like this was a demand or a coercion?
    Governor Blanco. I did not feel at that time in that 
meeting that there was any demand or coercion. I thought that 
he was seeking an honest answer. And indeed, on Saturday, he 
announced the organization just as I had suggested it, and the 
organization worked.
    Senator Lieberman. So, again, why the question was even 
coming up, to the best of your knowledge, it was just being 
described as a matter of administrative what, effectiveness 
or----
    Governor Blanco. Well, I guess what I would say that at 
some junctures you could sort of boil it down to just trying to 
figure out how to make it work for everybody.
    Senator Lieberman. OK.
    Governor Blanco. I was trying to get more people in, and 
another concern of mine was if they gave my National Guard to 
the DOD general, they might then consider that all the force 
that I was going to get. And I needed more people. I needed a 
lot of people.
    Senator Lieberman. Let us go to Friday night, and again, I 
am depending on your narrative. Close to midnight on Friday, 
you received a phone call from the Chief of Staff at the White 
House, Andrew Card. Is that correct?
    Governor Blanco. No. I received a call from General Blum--
--
    Senator Lieberman. OK.
    Governor Blanco [continuing]. Who was at the White House.
    Senator Lieberman. Was Mr. Card on the phone?
    Governor Blanco. Not the first two calls, but on the third 
call.
    Senator Lieberman. And they all happened that night?
    Governor Blanco. All happened that night.
    Senator Lieberman. Am I right that, at that point, you were 
being requested to allow the federalization of the Louisiana 
National Guard, and they faxed you this memorandum of 
understanding that we have since----
    Governor Blanco. Essentially, I would say yes.
    Senator Lieberman. What was the reason given for that 
request?
    Governor Blanco. For a midnight call?
    Senator Lieberman. Yes. Three, apparently.
    Governor Blanco. Right. Well, the reason was that the 
President was going to make a statement the next morning.
    Senator Lieberman. And was going to announce that the 
Louisiana Guard was going to be federalized?
    Governor Blanco. If I would agree to it.
    Senator Lieberman. Yes. And did General Blum, who had 
advised you earlier in the week not to allow the Guard to be 
federalized, continue to take that position? Did he say 
nothing, or did he urge you to allow the federalization?
    Governor Blanco. He explained to me that he was at the 
White House, being asked to make this call to me, and he had a 
schematic that he asked me to agree to. He actually didn't 
explain anything. He asked me to sign a letter that he was 
sending and wanted me to return it in 5 minutes.
    Senator Lieberman. That was the memorandum of 
understanding?
    Governor Blanco. That is correct. And I told him I could 
not do any such thing without legal review and that I certainly 
didn't want to make midnight decisions, even though I happened 
to be very wide awake.
    Senator Lieberman. Mr. Card then was on the second call?
    Governor Blanco. On the third phone call, I think.
    Senator Lieberman. Who was on the second?
    Governor Blanco. Blum.
    Senator Lieberman. Calling back and asking----
    Governor Blanco. It was Blum, and then Card came on on the 
third call.
    Senator Lieberman. Card on the third call with the same 
request?
    Governor Blanco. Right.
    Senator Lieberman. And again, any reason given for the 
request?
    Governor Blanco. They just thought it was--at that point in 
time, Andrew Card determined that he thought it was the best 
way to go.
    Senator Lieberman. Yes. Did you feel under pressure at that 
point, as compared to the conversation with the President 
earlier in the day?
    Governor Blanco. Well, it was a very different kind of 
pressure, but I still told him no.
    Senator Lieberman. Yes. And that is the way it ended?
    Governor Blanco. That is correct.
    Senator Lieberman. Thank you very much.
    Governor Blanco. I was very definitive, sir. There was 
never a question in my mind as to the lines of authority.
    Senator Lieberman. Thanks, Governor. I apologize, Madam 
Chairman. I just want to ask Governor Barbour a quick question.
    Were you at any time asked to allow the Federal Government 
to federalize the Mississippi National Guard?
    Governor Barbour. I was never directly asked. I made it 
very plain from day one that we didn't need Federal troops. We 
didn't need the Federal Government to run our National Guard, 
and they never attempted to.
    And when General Honore came onboard, it was made plain to 
me, and I made it plain to the Federal Government that we loved 
having General Honore, but he wasn't in charge of anything in 
Mississippi.
    Senator Lieberman. Yes. So, in a sense, you preemptively, 
if I may use that word, made it clear that you were not going 
to allow the federalization?
    Governor Barbour. Nobody ever asked me. But when the talk 
started----
    Senator Lieberman. Right.
    Governor Barbour [continuing]. I was very emphatic. It was 
the wrong thing to do. It is the wrong thing to do, but nobody 
ever asked me to do it. As far as I know, nobody ever tried to 
impose that.
    Senator Lieberman. Thank you.
    Governor Barbour. Yes, sir.
    Chairman Collins. Thank you. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam Chairman.
    I welcome you, Governor Barbour. Nice to see you again. And 
Governor Blanco, I welcome you as well. Both of you had a very 
arduous task and a challenging one, and history will have to 
unfold and make its judgments, but I have been impressed with 
your testimony this morning.
    I have been on an issue for some months up here in the 
context of these tragedies, and that is the doctrine of posse 
comitatus, which controls the authority of the Federal troops, 
that is the regular Army, Navy, Air Force, Marines, when they 
are involved in situations like this.
    It is a time-honored doctrine that prohibits them from 
involving themselves in what we call the ``normal police 
activities'' by a municipality or State or otherwise. And I 
support that basic doctrine.
    But then given the magnitude of these tragedies, I think we 
should go back and address the doctrine once again, determining 
if there may be cases for making some exceptions to that. And I 
have so wrote that to the Secretary of Defense, and that study 
is under way. But I think your views on it would be helpful.
    Recognizing that when the Guard and regular forces are 
integrated in the confusing, often tumultuous situations that 
evolve in these catastrophes, the average citizen can't 
distinguish from one uniform or the other. They are about the 
same.
    And if a law enforcement situation arose where the local 
law enforcement needed the assistance or wasn't available, and 
citizens had to turn to such troops that were present, the 
Federal troops would have to step back and relinquish the 
entire responsibility to National Guard, which does have the 
legal authority to integrate and work on law enforcement 
problems.
    Now given that history and doctrine, was that a factor in 
some of your considerations with regard to Federal troops, I 
ask you, Governor Blanco?
    Governor Blanco. I am not sure I understand the question. 
It was what?
    Senator Warner. When you decided about the utilization of 
the Federal troops, you wanted boots on the ground?
    Governor Blanco. I wanted boots on the ground to help with 
our----
    Senator Warner. And you wanted those boots to have full 
authority to assist law enforcement?
    Governor Blanco. No, sir.
    Senator Warner. You didn't?
    Governor Blanco. No. I have the National Guard for that. 
And that is why I did not want the Guard federalized. It is 
very important for a governor to be able to retain control of 
the National Guard precisely for its law enforcement 
capabilities.
    Many of the members of the Guard who work as security 
forces are actually civil law enforcement officers in their 
daily work. So they know the rules. They know the parameters. 
They know the language of local law enforcement, which is very 
different from military protocols.
    And so, I think it is very important to respect the time-
honored issues of posse comitatus. I would urge you not to do 
anything to alter that.
    I think that the recommendation that I would make is if and 
when a governor requests additional Federal troops, in our 
case, we needed people. We needed people who could go in and 
carry out very difficult missions, which, indeed, they did 
afterward. And that was going from home to home, doing the 
searches. Doing even some more rescue efforts at certain times.
    But I would say if a governor calls, please send the 
troops, and they can work out their coordination details upon 
arrival. But as we support the local law enforcement efforts at 
the State level with the National Guard, I think that having 
the Federal troops support the National Guard is the correct 
procedure.
    Senator Warner. Governor Barbour, do you have some views on 
that subject?
    Governor Barbour. We never asked for any Federal troops, 
partially because we didn't need them. But we never lost 
continuity of government. Our local police and fire, Waveland, 
Mississippi, population 7,000, 26 policemen. There is not a 
habitable structure in Waveland, Mississippi.
    At 9 p.m. the night of the storm, all 26 policemen were on 
duty. And so, we never got to the situation where we even 
thought about Federal troops. We do have Federal troops. We 
have military facilities, and particularly the Seabee base, 
they were fabulous. But never in any law enforcement role. 
Never wanted them in any, never needed them in any, never asked 
for them in any.
    And I would not be for making any change in posse 
comitatus, and I would not be for using Federal troops. The 
truth of it is, Senator, the National Guard, most of them are 
not trained for law enforcement. More of that is they can help 
with important things. The uniform makes people behave.
    But I would hate for my National Guardsmen to have to go 
out and start arresting people because they are not trained to 
do that. They could hurt somebody. So we tried, as much as 
possible, except for the MPs and other specially trained 
people, to not let our Guardsmen get in a true law enforcement 
situation. There was plenty of other stuff for them to do, 
don't get me wrong.
    But I think that not only is the doctrine of posse 
comitatus important, I think it is important that these folks 
are not trained in law enforcement. And lots of them are 
warriors, and the training they got is not exactly what you 
want from law enforcement.
    Senator Warner. Well, the Department of Defense now is 
looking at the future of the Guard, and I am among, I think, 
most of us here who want to support the Guard and strengthen it 
in every way.
    Should we add, as a requirement, that Guardsmen receive 
some basic training in law enforcement in the event that they 
may be called in to situations?
    Governor Barbour. I am not sure it is necessary, Senator. I 
would not advocate that if it took away from training for their 
true mission for the country because their mission is critical. 
I just had 3,500 come home from Iraq, and they did a fabulous 
job because they are trained. And I wouldn't want us to train 
them on something superfluous.
    But, yes, if there is extra time. If it doesn't interfere 
with the real mission. Lots of them are going to do some kind 
of duty that is close to law enforcement during their period in 
the Guard, but I sure wouldn't let it interfere with the real 
mission.
    Senator Warner. No, I don't think that.
    Governor Barbour. Yes, sir.
    Senator Warner. But as you know, those of us who went 
through basic training in the military, you are given a 
diversified spectrum of training initially, and they don't have 
to have that as their primary mission. But it might be helpful 
in the event of these contingencies.
    This was an extraordinary event in the history of our 
Nation, and great people stood up and provided assistance for 
which they had no training at all. And they acted magnificently 
in a wide range of areas.
    Governor Barbour. Yes, sir. And the Guard was indispensable 
to us. We had about 12,000. Every National Guard of every State 
in the country did something. But we had about 12,000 actually, 
as they say, boots on the ground. And they were indispensable, 
but we tried not to let them have any true law enforcement 
assignment unless they were trained for it.
    Senator Warner. Good. Thank you.
    I hope to press these questions with General Honore--
because he distinguished himself in this area--Madam Chairman, 
when he appears next week. I thank each of you.
    Chairman Collins. Thank you.
    Governor Blanco, you were very clear this morning that 
Mayor Nagin did not participate in the private discussion that 
you had with the President in which you did definitively turn 
down the option of changing the status of the Louisiana 
National Guard. And that contrary to what the mayor told us 
yesterday, you did reach a decision during that meeting. Is 
that correct?
    Governor Blanco. I was very clear, yes. I was very clear 
with the President on the way that I believed the structure 
should function. I was much less concerned with turf than with 
tactics. I needed people, and I did not need to do a paper 
reorganization at that moment.
    Chairman Collins. I am trying to figure why, if you 
rejected that offer at that meeting, you got three phone calls 
after midnight that night and a memorandum of agreement 
concerning the authorization consent and use of dual status 
commander for Joint Task Force Katrina was faxed to you.
    If you told the President that you didn't want to change 
the status of the Guard and the decision was, in fact, made at 
that meeting, then----
    Governor Blanco. I am not saying that about the decision. I 
said we had an honest discussion, and I left very clear on what 
I wanted to do. I told the President--he is the President of 
the United States--that with all due respect, if I changed my 
mind, I would let him know within 24 hours.
    How that conversation was reinterpreted by Mayor Nagin is 
another conversation I was not privy to. At midnight, a hybrid 
offer, I suppose, was called in for my consideration. But 
essentially, it had the same effect, in my estimation.
    Chairman Collins. Well, that is what I want to clarify. I 
want to clarify two points. Then, essentially, Mayor Nagin is 
correct that a final decision was not made until later, but you 
are saying you made a tentative decision?
    Governor Blanco. I did not. I gave the President my idea of 
how this structure could work. And on Saturday morning, he 
ended up agreeing with me when he went to his press conference 
to announce that he would be sending additional troops.
    I was there to ask for additional troops. I wasn't there to 
talk about structure. The structure was their conversation or 
their concern, not mine.
    Chairman Collins. I want to clarify a second point related 
to the structure, and it is in Exhibit 5 in your book,\1\ if 
you want to look at what I am reading.
---------------------------------------------------------------------------
    \1\ Committee Exhibit 5 appears in the Appendix on page 132.
---------------------------------------------------------------------------
    This is the memorandum of agreement that the White House 
proposed, and I think it is important that we look at it 
because when we use the word ``federalizing'' of the National 
Guard, most people would believe that meant that you would lose 
control over the National Guard. But in fact, that is not at 
all what the White House proposed to you.
    Governor Blanco. It was a hybrid arrangement at midnight on 
Friday night.
    Chairman Collins. It is. It is dual-hatting, and it says 
specifically under State Command and Control, ``The Louisiana 
governor will provide command and control over the supporting 
National Guard forces. As a member of the Louisiana National 
Guard in a State status, the dual status commander is subject 
to the orders of the governor of the State of Louisiana.''
    What really was being proposed is that General Honore, the 
active duty general, would report both to you and to the 
Secretary of Defense. Is that not correct?
    Governor Blanco. Well, that is probably essentially 
correct. As I said, it was a hybrid. Apparently, they spent all 
day trying to figure out how to federalize without actually 
federalizing, I guess. I am not quite sure what that exercise 
was all about.
    In essence, the drama moments were settled by the Louisiana 
National Guard and the Guard members from 50 States, 4 
territories, and Washington, DC. And I couldn't get one Federal 
Government to move its troops in to assist. So, at that point 
in time, this hybrid arrangement coming to me at midnight just 
seemed a little like posturing instead of a real solution.
    Chairman Collins. Well, let me make clear that I think it 
would have been helpful to you to have active duty troops in 
your State earlier than----
    Governor Blanco. I agree, Senator.
    Chairman Collins [continuing]. When the bulk of them 
arrived, which was not until Saturday. You did have General 
Graham and his staff in the State on Wednesday. But significant 
numbers of troops did not arrive until Saturday.
    We did ask General Landreneau whether the fact that those 
significant numbers of active duty troops that did not arrive 
until Saturday harmed his ability to execute any missions. And 
his response was that while the National Guard forces had to 
perform the missions with smaller forces than was ideal, he 
told us, ``I cannot identify a mission that was compromised.''
    Do you agree with that assessment?
    Governor Blanco. Well, our people worked very hard, and 
that is what Louisiana's trademark is. We have hard-working 
people who will do whatever it takes, no matter what the 
circumstances are. And that is, I think, what he was defining 
that while we would have probably felt better about having more 
boots on the ground, we did with what we had.
    And that was the story all week, that story of that week of 
misery that our people had to suffer. We did all that we could 
with what we had, and we worked very hard and saved a lot of 
lives. We saved 1.3 million before the storm, and we pulled out 
over 70,000 in the aftermath of the storm.
    And so there are a lot of Louisiana heroes. They are in the 
National Guard. They are sheriff's deputies. They are city 
police officers. They are firefighters. They are volunteers.
    We had a State senator, Walter Boasso, and another in the 
affected region, who lost his home and business, leading rescue 
missions. My lieutenant governor was leading rescue missions. 
Another State senator outside of the area organized volunteers 
and brought volunteers with their boats in to lead rescue 
missions.
    We did with what we had. It was miraculous. We did a 
fabulous job, Senator. And I can only tell you that the 
Louisiana heroes are long in number, strong in courage, and 
they did a magnificent job.
    Could we have used more help? That was what I was trying to 
say. And I believe the help could have come on Tuesday or 
Wednesday. The Federal forces could have been leaning forward 
under the annex part of the disaster planning that FEMA has. 
They could have leaned forward and come.
    Even without me asking, they could have come. But I was 
asking, and I just want to make that clear for the record.
    Chairman Collins. I am just going to ask a couple final 
questions to each of you, and I am going to start with Governor 
Barbour--and ask you the same question.
    Looking back, what do you believe is the single greatest 
deficiency at the State level that you had to confront, and 
what reform are you going to implement at the State level to 
improve your response?
    Governor Barbour. The lack of a survivable interoperable 
communications system is the single biggest problem. If you 
can't communicate, you can't lead.
    My head of the National Guard might as well have been a 
Civil War general for the first 2 or 3 days because he only 
could find out what was going on by sending somebody. He did 
have helicopters instead of horses, so it was a little faster. 
But same sort of thing.
    But that is clearly the biggest problem, and I would 
suggest for the Federal Government, the Federal Government has 
a dog in that fight, too, and that it should be involved in it. 
But that is the thing. If it is one thing, that is the one 
thing.
    Chairman Collins. You have anticipated what my second 
question was going to be for you, and that is what is the 
single most important reform that needs to be done at the 
Federal level?
    Governor Barbour. Well, in my testimony, you will see I 
make some suggestions about how to improve debris removal, 
temporary housing. And I will try not to run on.
    Chairman Collins. Take your time.
    Governor Barbour. But we think the biggest single thing is 
to get your people home. If your people come home to rebuild 
their community and have hope and optimism, then they will 
stay, and they will rebuild the Gulf Coast bigger and better 
than ever, which is what is going to happen.
    They have got to have temporary housing. Got to get the 
kids back in school. Got to have work. One hundred fifty-one of 
our 152 school districts in Mississippi were open October 10. 
The last one opened November 6, and it would have been opened 2 
weeks earlier except the portable classrooms got delayed.
    So our kids are back in school. Over 99 percent of 
Mississippi school children are back in school in the community 
where they were before the hurricane. Now some of them are not 
in the same school building because it doesn't exist anymore. 
Some of them maybe have gone to another part of the county.
    Second, we have 34,000 people living in travel trailers 
right now. I am going to come back to that. We have already 
talked with Senator Akaka. There is work. The biggest problem 
for getting people home, once you get the electricity on--and 
don't underestimate how critical that is. Everything runs on 
electricity, it turns out.
    And our electric utilities, Mississippi Power and Entergy 
Mississippi, were fabulous. After Camille, a much smaller 
storm, it took 8 weeks to get the electricity back on. Twelve 
days after the storm, Mississippi Power gave electricity to 
everybody who could receive it. Unfortunately, there were about 
70,000 houses that couldn't receive it because they had been 
destroyed.
    But the temporary housing thing has been the toughest 
mountain, and I say in my testimony, please, come up with 
alternative temporary and transitional housing solutions. The 
single solution of travel trailers and mobile homes is just not 
enough. These guys have put in more travel trailers than 
anybody, maybe two or three times the pace. It is just not good 
enough.
    We have got to have other solutions for temporary housing 
because you cannot rebuild your community if people can't have 
a place to stay at home. They start going to Texas and going to 
Georgia, getting a new job.
    And our whole goal was to get people home as fast as 
possible, to give them a stake in rebuilding the communities, 
and give them optimism and hope that they are going to be part 
of building back the coast bigger and better than it ever was 
before.
    Chairman Collins. Thank you.
    Governor Blanco, the same questions for you. What is the 
number-one reform that you are going to be pressing for at the 
State level, and what is the most important reform that we need 
to do at the Federal level?
    Governor Blanco. I think, as I remarked in my comments, my 
opening statement, that communication network is probably the 
single most important thing that hampered our ability to 
understand what was going on in the field and respond to the 
needs of the local leadership. So interoperability and a 
communications network is extremely critical to Louisiana's 
response efforts.
    We are working to acquire mobile communication networks, 
command units that can be deployed into a disaster area of any 
magnitude right now. We also know that the monies that we 
received for that are dedicated 80 percent to the local 
governments and 20 percent to the State. We have begun the 
process of developing an interoperable network that will 
transcend into the local level so that everybody is on the same 
page and that we can all communicate on the same network, and I 
think that is extremely important.
    As to the Federal side, again, Governor Barbour and I have 
the exact same problems. We experienced a lot of the same 
frustrations. Ours was a magnitude and a dimension that was far 
greater, and I guess that is our essential difference. The 
storm hit an intensely urban area.
    But I will tell you that the big frustrations come through 
FEMA contracts. These local leaders will tell you that they 
could have effected a clean-up for far less money, and the 
money that you have expended on the clean-up could be going to 
restoration and to rebuilding housing instead of debris 
removal. The contracts could be done earlier at the local level 
if given some flexibility.
    And the Stafford Act definitely needs to be revised to 
handle a catastrophe of the magnitude that we are dealing with. 
Specifically, the costs of sending in temporary housing 
sometimes equate per unit to the cost of buying new housing for 
our citizens, permanent housing.
    And I think that the Stafford Act needs to be reviewed, and 
I believe that a lot of FEMA people who have to work with it 
will be in agreement with us. It is faster to fix apartment 
units that have gone down--but that is permanent housing, they 
are not allowed to do that--than to run out and try to find a 
bunch of trailers that don't exist on the scene.
    I think they had to order some 150,000 trailers, and this 
Nation, in the early stages of this operation, could produce 
3,000 per month. So you see the longevity efforts.
    Now the trailers are in place, but they are spending a lot 
of money putting up the infrastructure for the trailer 
communities. And again, this is all temporary housing, and it 
is estimated that sometimes it costs as much as $75,000 to 
$100,000 per unit to establish. You could buy a house for that 
amount of money.
    But there is a prohibition against permanent housing. And I 
hate to see good money thrown after temporary situations when 
we could, in effect, be putting in permanent housing.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks.
    Governor Blanco, one of the questions we are focusing on 
here is why all levels of government--but we are particularly 
focusing on the Federal Government, of course--didn't heed the 
warnings that in the big one, a big hurricane hitting--I am 
speaking specifically about New Orleans now because of the 
water all around and the topography, the bowl effect--that the 
local and State governments would be overwhelmed and that the 
Federal Government would have to come in. And one of the 
questions we keep asking is why they didn't do it earlier.
    Last fall, before a House committee, the former director of 
FEMA Michael Brown testified, when he was asked the question 
about his biggest mistake, just as you all were just now, he 
said, ``My biggest mistake was not recognizing by Saturday that 
Louisiana was dysfunctional.''
    I presume that you are familiar with this comment?
    Governor Blanco. Yes, sir. I am.
    Senator Lieberman. I don't know if you ever had the chance 
to talk to him about it. It was last fall after he had left 
FEMA.
    Governor Blanco. No. I chose not to speak to him.
    Senator Lieberman. Yes. So how do you react to that? And 
what do you think the basis for that statement was?
    Governor Blanco. Well, let me just capsulize it by saying 
that Mr. Brown was removed by the President, and I thank him 
for it. Mr. Brown has now set the record straight, and I thank 
him for it.
    Senator Lieberman. That was very gracefully done. 
[Laughter.]
    Let me ask you a factual question now, which is, and I am 
asking everybody this. In your opening statement, you remarked 
that we would not be here if the levees had not failed. 
Absolutely right. But fail they did.
    I am interested in knowing when and how you first learned 
that the levees around New Orleans had broken or been topped?
    Governor Blanco. Starting at about noon on Monday, probably 
at a pretty strong period, high pitch of the storm event for 
the New Orleans area, the region, we began to learn of many 
levees breaking. You cannot do anything during the course of 
the storm. Everybody has to stay put. There is not very much 
you can do.
    Senator Lieberman. How did you learn?
    Governor Blanco. Well, we were hearing it, I guess, to some 
extent, from our own internal reports. We had people out in the 
field, and the reports came in. And I remember that I went to 
the press briefings and reported it out to the media as well, 
through the media.
    Senator Lieberman. What went through your mind when you 
heard that the levees had broken?
    Governor Blanco. My heart sunk.
    Senator Lieberman. Yes.
    Governor Blanco. Yes. We expected some overtopping, and we, 
indeed, got that in some of the low-lying regions. We were 
depending on those levees to hold.
    Senator Lieberman. What steps did you take after you 
learned that?
    Governor Blanco. Well, when I spoke to Mayor Nagin later in 
the afternoon, I immediately called General Landreneau and 
asked him if he could begin to organize an effort by the 
National Guard to go sandbag the breach. He started that 
process immediately.
    Now you can't bring helicopters up as long as the winds are 
blowing, and not all helicopters can be flown at night either. 
So they organized a sandbagging operation.
    Senator Lieberman. From the ground? On the ground?
    Governor Blanco. Well, no. They had to do it--they couldn't 
do anything from the ground.
    Senator Lieberman. So, in other words, they waited until 
the hurricane had subsided?
    Governor Blanco. They had to. Yes, sir.
    Senator Lieberman. Right.
    Governor Blanco. You have no choice in that. There was 
still gale force winds and tropical force winds late Monday 
afternoon. So, in the next day or so, they began to organize a 
sandbag operation, and the general called me, I needed to 
report on what was going on. And so, he called, and he said, 
``Governor,'' he says, ``I hate to tell you this. We are 
dropping 3,000-pound sandbags into that breach, and they are 
disappearing as though we are doing nothing.''
    Senator Lieberman. Right.
    Governor Blanco. So with the Department of Transportation, 
Secretary Johnny Bradberry, and his public works people, 
together with the National Guard in those early, those first 
days, they tried to figure out how they could stop the breach.
    They had to build a road to the area, and also the West 
Jefferson Levee Board was helping the Orleans Parish Levee 
Board. And they brought all their equipment in, and they had to 
build a road. There was a bridge that prohibited getting in by 
boat.
    Any kind of complication that you can think of was there, 
but they began the process. Then they designed 10,000 pound 
sandbags, and for several days, they brought that in. But on 
Friday, the level of the lake and the level in the canal became 
the same. Before that time, the lake was very high and pushing 
water into the canal and into the city.
    Senator Lieberman. Right. Thank you.
    I have no further questions. I just want to come back to a 
line of questioning and leave you with something to think 
about, if I might, and I ask your thoughts, which is the whole 
question illustrated, in some sense dramatized, by the 
conversations you had, Governor Blanco, with the Federal 
Government--the President, etc.--about troops coming in.
    There is no question that one of the reactions, certainly 
here in Washington, to Hurricane Katrina was to ask, looking 
back, why didn't we move Federal regular Army troops in, in the 
specific case of New Orleans, quicker?
    But now to look at an increasing role through the Northern 
Command of the regular Army, so-called Title 10 forces, in 
homeland defense and disaster response. Again, thinking both of 
natural disasters and the possibility of a terrorist attack. 
And I think it is very important for the governors and your 
State adjutant generals to think this through and give us your 
counsel on it, both in terms of whether the Federal role would 
be critical just for more personnel or whether they, and you 
said both, Governor Blanco, would bring some extra capability?
    Presumably, the regular Army could have set up at least 
right after the storm, maybe right before, a communications 
system that would have literally weathered the storm. And under 
what circumstances you, as governors, would like to see that 
happen?
    And then I guess you both made pretty clear what 
administrative arrangement you would like to see, which is that 
you, as governors, remain in charge of your National Guard 
State, but that the Federal presence be separately under the 
command of a Title 10 commander. In this case, it was General 
Honore.
    Anyway, these are real important questions. I know the 
people at the Pentagon are thinking about them. I know that 
Admiral Keating of Northern Command is thinking about them. We 
are going to have them testifying before us in the next week or 
maybe afterward. I believe next week.
    And you are at the middle of this because you are going to 
be the people who are going to be on the front lines, 
literally, and we need your counsel as to how best to create 
both the assistance and appropriate command and cooperation.
    I thank you both, and I thank you, Madam Chairman.
    Chairman Collins. Thank you. I want to thank both of you 
for your participation in this hearing today. Your testimony 
was very helpful to us in getting a better understanding.
    I can't imagine two governors in the United States who have 
been tested through such an ordeal more so than you have, and I 
do want you to know that, as we go forward, we are also very 
mindful of the recovery and reconstruction challenges that you 
face. And both of you, in your written statements, give us 
advice and recommendations and requests, and I want to assure 
you that those have not gone unheard.
    Your full statements will be included in the record. I do 
anticipate that there may be some additional questions for the 
record. So the record will remain open for 15 days.
    Again, thank you for your participation.
    Governor Blanco. Thank you, Senators.
    Governor Barbour. Thank you, ma'am.
    Senator Collins. The hearing is now adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7024.001

[GRAPHIC] [TIFF OMITTED] T7024.002

[GRAPHIC] [TIFF OMITTED] T7024.003

[GRAPHIC] [TIFF OMITTED] T7024.004

[GRAPHIC] [TIFF OMITTED] T7024.005

[GRAPHIC] [TIFF OMITTED] T7024.006

[GRAPHIC] [TIFF OMITTED] T7024.007

[GRAPHIC] [TIFF OMITTED] T7024.008

[GRAPHIC] [TIFF OMITTED] T7024.009

[GRAPHIC] [TIFF OMITTED] T7024.010

[GRAPHIC] [TIFF OMITTED] T7024.011

[GRAPHIC] [TIFF OMITTED] T7024.012

[GRAPHIC] [TIFF OMITTED] T7024.013

[GRAPHIC] [TIFF OMITTED] T7024.014

[GRAPHIC] [TIFF OMITTED] T7024.015

[GRAPHIC] [TIFF OMITTED] T7024.016

[GRAPHIC] [TIFF OMITTED] T7024.017

[GRAPHIC] [TIFF OMITTED] T7024.018

[GRAPHIC] [TIFF OMITTED] T7024.019

[GRAPHIC] [TIFF OMITTED] T7024.020

[GRAPHIC] [TIFF OMITTED] T7024.021

[GRAPHIC] [TIFF OMITTED] T7024.022

[GRAPHIC] [TIFF OMITTED] T7024.023

[GRAPHIC] [TIFF OMITTED] T7024.024

[GRAPHIC] [TIFF OMITTED] T7024.025

[GRAPHIC] [TIFF OMITTED] T7024.026

[GRAPHIC] [TIFF OMITTED] T7024.027

[GRAPHIC] [TIFF OMITTED] T7024.028

[GRAPHIC] [TIFF OMITTED] T7024.029

[GRAPHIC] [TIFF OMITTED] T7024.030

[GRAPHIC] [TIFF OMITTED] T7024.031

[GRAPHIC] [TIFF OMITTED] T7024.032

[GRAPHIC] [TIFF OMITTED] T7024.033

[GRAPHIC] [TIFF OMITTED] T7024.034

[GRAPHIC] [TIFF OMITTED] T7024.035

[GRAPHIC] [TIFF OMITTED] T7024.036

[GRAPHIC] [TIFF OMITTED] T7024.037

[GRAPHIC] [TIFF OMITTED] T7024.038

[GRAPHIC] [TIFF OMITTED] T7024.078

[GRAPHIC] [TIFF OMITTED] T7024.079

[GRAPHIC] [TIFF OMITTED] T7024.080

[GRAPHIC] [TIFF OMITTED] T7024.081

[GRAPHIC] [TIFF OMITTED] T7024.082

[GRAPHIC] [TIFF OMITTED] T7024.083

[GRAPHIC] [TIFF OMITTED] T7024.084

[GRAPHIC] [TIFF OMITTED] T7024.085

[GRAPHIC] [TIFF OMITTED] T7024.086

[GRAPHIC] [TIFF OMITTED] T7024.087

[GRAPHIC] [TIFF OMITTED] T7024.088

[GRAPHIC] [TIFF OMITTED] T7024.089

[GRAPHIC] [TIFF OMITTED] T7024.090

[GRAPHIC] [TIFF OMITTED] T7024.091

[GRAPHIC] [TIFF OMITTED] T7024.039

[GRAPHIC] [TIFF OMITTED] T7024.040

[GRAPHIC] [TIFF OMITTED] T7024.041

[GRAPHIC] [TIFF OMITTED] T7024.042

[GRAPHIC] [TIFF OMITTED] T7024.043

[GRAPHIC] [TIFF OMITTED] T7024.044

[GRAPHIC] [TIFF OMITTED] T7024.045

[GRAPHIC] [TIFF OMITTED] T7024.046

[GRAPHIC] [TIFF OMITTED] T7024.047

[GRAPHIC] [TIFF OMITTED] T7024.048

[GRAPHIC] [TIFF OMITTED] T7024.049

[GRAPHIC] [TIFF OMITTED] T7024.050

[GRAPHIC] [TIFF OMITTED] T7024.051

[GRAPHIC] [TIFF OMITTED] T7024.052

[GRAPHIC] [TIFF OMITTED] T7024.053

[GRAPHIC] [TIFF OMITTED] T7024.054

[GRAPHIC] [TIFF OMITTED] T7024.055

[GRAPHIC] [TIFF OMITTED] T7024.056

[GRAPHIC] [TIFF OMITTED] T7024.057

[GRAPHIC] [TIFF OMITTED] T7024.058

[GRAPHIC] [TIFF OMITTED] T7024.059

[GRAPHIC] [TIFF OMITTED] T7024.060

[GRAPHIC] [TIFF OMITTED] T7024.061

[GRAPHIC] [TIFF OMITTED] T7024.062

[GRAPHIC] [TIFF OMITTED] T7024.063

[GRAPHIC] [TIFF OMITTED] T7024.064

[GRAPHIC] [TIFF OMITTED] T7024.065

[GRAPHIC] [TIFF OMITTED] T7024.066

[GRAPHIC] [TIFF OMITTED] T7024.067

[GRAPHIC] [TIFF OMITTED] T7024.068

[GRAPHIC] [TIFF OMITTED] T7024.069

[GRAPHIC] [TIFF OMITTED] T7024.070

[GRAPHIC] [TIFF OMITTED] T7024.071

[GRAPHIC] [TIFF OMITTED] T7024.072

[GRAPHIC] [TIFF OMITTED] T7024.073

[GRAPHIC] [TIFF OMITTED] T7024.074

[GRAPHIC] [TIFF OMITTED] T7024.075

[GRAPHIC] [TIFF OMITTED] T7024.076

[GRAPHIC] [TIFF OMITTED] T7024.077

[GRAPHIC] [TIFF OMITTED] T7024.092

[GRAPHIC] [TIFF OMITTED] T7024.093

[GRAPHIC] [TIFF OMITTED] T7024.094

[GRAPHIC] [TIFF OMITTED] T7024.095

[GRAPHIC] [TIFF OMITTED] T7024.096

[GRAPHIC] [TIFF OMITTED] T7024.097

[GRAPHIC] [TIFF OMITTED] T7024.098

[GRAPHIC] [TIFF OMITTED] T7024.099

[GRAPHIC] [TIFF OMITTED] T7024.100

[GRAPHIC] [TIFF OMITTED] T7024.101

[GRAPHIC] [TIFF OMITTED] T7024.102

[GRAPHIC] [TIFF OMITTED] T7024.103

[GRAPHIC] [TIFF OMITTED] T7024.104

[GRAPHIC] [TIFF OMITTED] T7024.105

[GRAPHIC] [TIFF OMITTED] T7024.106

[GRAPHIC] [TIFF OMITTED] T7024.107

[GRAPHIC] [TIFF OMITTED] T7024.108

[GRAPHIC] [TIFF OMITTED] T7024.109

[GRAPHIC] [TIFF OMITTED] T7024.110

[GRAPHIC] [TIFF OMITTED] T7024.111

[GRAPHIC] [TIFF OMITTED] T7024.112

[GRAPHIC] [TIFF OMITTED] T7024.113

[GRAPHIC] [TIFF OMITTED] T7024.114

[GRAPHIC] [TIFF OMITTED] T7024.115

[GRAPHIC] [TIFF OMITTED] T7024.116

[GRAPHIC] [TIFF OMITTED] T7024.117

[GRAPHIC] [TIFF OMITTED] T7024.118

[GRAPHIC] [TIFF OMITTED] T7024.119

[GRAPHIC] [TIFF OMITTED] T7024.120

[GRAPHIC] [TIFF OMITTED] T7024.121

[GRAPHIC] [TIFF OMITTED] T7024.122

[GRAPHIC] [TIFF OMITTED] T7024.123

[GRAPHIC] [TIFF OMITTED] T7024.124

[GRAPHIC] [TIFF OMITTED] T7024.125

[GRAPHIC] [TIFF OMITTED] T7024.126

[GRAPHIC] [TIFF OMITTED] T7024.127

[GRAPHIC] [TIFF OMITTED] T7024.128

                                 <all>

</pre></body></html>
